<html>
<title> - RURAL WATER SUPPLY ACT OF 2006</title>
<body><pre>[Senate Hearing 110-204]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-204
 
                     RURAL WATER SUPPLY ACT OF 2006

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   TO

RECEIVE TESTIMONY ON THE BUREAU OF RECLAMATION'S IMPLEMENTATION OF THE 
RURAL WATER SUPPLY ACT OF 2006, AND FEDERAL, STATE AND LOCAL EFFORTS TO 
  PLAN AND DEVELOP THE EASTERN NEW MEXICO RURAL WATER SUPPLY PROJECT.

                               __________

                      CLOVIS, NM, AUGUST 14, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
39-477                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Bostwick, Darrel, Chairman, Ute Water Commission, Melrose, NM....    27
D'Antonio, John, New Mexico State Engineer, Santa Fe, NM.........    22
Domenici, Hon. Pete V., U.S. Senator From New Mexico.............     2
Lansford, David, Mayor, Clovis, NM...............................    14
Neubauer, Chris, on Behalf of Tom Udall, U.S. Representative From 
  New Mexico.....................................................     4
Ortega, Orlando, Mayor, Portales, NM.............................
Sabo, David, Assistant Regional Director, Upper Colorado Region, 
  Bureau of Reclamation, Department of the Interior..............     4

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    39

                              Appendix II

Additional material submitted for the record.....................    43


                     RURAL WATER SUPPLY ACT OF 2006

                              ----------                              


                        TUESDAY, AUGUST 14, 2007

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                Clovis, New Mexico.
    The committee met, pursuant to notice, at 10:04 a.m. in the 
Clovis-Carver Library, North Annex, 701 North Main Street, 
Clovis, New Mexico 88101, Hon. Jeff Bingaman, chairman, 
presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Good morning. It's my pleasure to welcome 
everyone to this hearing. The purpose of our hearing today is 
to receive testimony on the Bureau of Reclamation's 
implementation of the Rural Water Supply Act of 2006 and the 
Federal, State, and local efforts to plan and develop the 
Eastern New Mexico Rural Water Supply Project.
    Let me just, before we get started, thank Mayor Lansford 
and his staff here at the City for their hospitality and help 
with putting this hearing together. Thank you, Mr. Mayor.
    Obviously, it is great to be over here, and particularly, 
it seems that Senator Domenici and I are here together usually 
in connection with Cannon Air Force Base. We are very pleased 
to see the progress there, and I think we are all coming back, 
I have been informed, in October for a stand-up of the new wing 
out here.
    It is now increasingly critical to address an issue that 
threatens the long-term vitality of the region, and that is the 
lack of a long-term supply of water. This is an issue facing 
many areas of the country, particularly in rural communities. 
According to the Department of Agriculture, 17 percent of the 
United States population lives in non-metropolitan areas. In 
the west, that percentage is higher. It is at least 35 percent 
here in New Mexico.
    The Department of Agriculture also reports that at least 
2.2 million rural Americans live with critical water quality 
and accessibility problems related to their drinking water. To 
help address the problem, last year, Congress enacted the Rural 
Water Supply Act that Senator Domenici and I wrote, and the Act 
is intended to make water supply a fundamental part of the 
Bureau of Reclamation's mission. We look forward in this 
hearing to getting Reclamation's update on their efforts to 
implement that law.
    Here in Eastern New Mexico, there's been a very proactive 
effort to address the serious issue of water supply. Sole 
reliance on the diminishing groundwater supplies available from 
the Ogallala and Entrada aquifers is not sustainable. Clovis 
and Portales have, therefore, led a regional effort to secure a 
renewable source of water that will sustain current uses and 
support future growth and economic development, and this 
effort, of course, is the Eastern New Mexico Rural Water 
System.
    In 2004, I introduced legislation authorizing the project 
as a way to move the process forward. I think that effort was 
helpful to get the issues on the table so that they could be 
addressed and resolved. Ultimately, modifications to the scope 
of the project were made, and it is now focused on providing 
water to communities in Curry and Roosevelt Counties. Led by 
Eastern New Mexico Water Authority and with funding provided by 
the State, there's also been a substantial amount of work done 
to address other issues raised by the Bureau of Reclamation in 
2004.
    In addition to hearing from Reclamation on its efforts to 
implement the rural water program, we are here today to assess 
the status of the Eastern New Mexico Rural Water System to 
determine what issues have been resolved and which issues still 
remain and to hear from the effected communities on the need 
for the project. It is my hope, of course, that we are in a 
position to move forward with authorizing legislation again in 
the very near future.
    So with that, let me turn to Senator Domenici for any 
opening remarks that he has before we hear from our witnesses.

   STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Domenici. Thank you very much, Senator Bingaman. It 
is good to be here. Thanks to all of you. A good deal of number 
of people turned out for this event, and that shows that it's 
an important issue. That's obvious. Mayor, it's good to be with 
you. Thanks for pushing this issue.
    Sooner or later, and I think it is sooner now, we are going 
to resolve the various issues and come to a point of deciding 
whether or not this is the way to get the water for the future 
of this community or not.
    We are going to hear today from those who think it is, and 
I think that we ought to just proceed forthwith. I want to 
thank Mayor Lansford from Clovis and Ortega from Portales for 
being the key leaders in this region and carrying the message 
and the proposal for this water project across the nation. Your 
efforts at trying to resolve this problem have not gone 
unnoticed. Your community should be grateful for your personal 
sacrifices and acts of leadership.
    I want to emphasize that while important, the current Ute 
Pipeline can only address the municipal and industrial water 
supply issue, which is only 10 percent of the overall water 
supply problem in this region. It is abundantly clear that the 
economic well-being of this region will require additional 
creative thinking and concentrated leadership, and you all know 
that.
    Over the last 5 years, the State Office and the Engineers' 
Office has been a strong supporter for the use of the reservoir 
water to supply the needs of communities in the Clovis and 
Portales region. That support has been unwavering. I extend my 
gratitude to John D'Antonio for pushing forward towards a 
solution. We thank you, Mr. D'Antonio for your unfettered 
support.
    The Bureau of Rec, on the other hand, has been a reticent 
participant in this process. There is no reason why the 
feasibility work for this project could not have been 
accomplished many years ago. Although the engineers assigned to 
this project have worked hard, it is time to redouble our 
efforts. I think we know that.
    It is for this reason that I welcome Senator Bingaman's 
efforts to couple the field hearing on the Ute Pipeline with 
the oversight on the Bureau of Reclamation New Rural Water 
Supply Program. The Rural Water Supply Act of 2005 was passed 
last December. In that Act, the Bureau was required by December 
22, 2008, to do a rigorous assessment of existing rural water 
programs, the extent of rural water supply needs, and define 
how the Bureau's program can complement and be coordinated with 
the rural water supply programs. I look forward to hearing an 
update on the progress the Bureau has made over the last 8 
months at accomplishing this task.
    Additionally, the Rural Water Supply Act provided a 
standing authority for the Bureau to engage in appraisal and 
feasibility assessment for new rural water projects using 
standardized assessment criteria. The criteria for appraisal 
studies are due by this coming December. This is only 4 months 
away, and the criteria for a feasibility study are due by May 
2008, only 10 months away. Again, I look forward to hearing an 
update today on the progress the Bureau has made in developing 
these criteria.
    Finally, in my experience working with the Bureau on the 
Ute Pipeline, it is evident that the BOR was not enthusiastic 
about undertaking for Eastern New Mexico the type of 
feasibility studies for which they have now received standing 
authority.
    Given this history, I question to what extent the BOR will 
actively seek to engage the rural communities of Western United 
States--take leadership in resolving the growing water supply 
crisis and to be an organization in which I can take pride as a 
member of the Federal family.
    Again, I look forward to hearing from the Administration on 
these issues and hope that we can work together to find 
financially responsible technology, feasible resolutions and 
solutions for the water supply challenges of Eastern New 
Mexico. Thank you for having me.
    The Chairman. OK. Before I start introducing witnesses 
here, let me take care of a couple of things. First, the 
committee has received a number of additional statements, 
written statements and exhibits and testimony regarding the 
proposed legislation. These items, as well as the full written 
submissions of all the witnesses, will be made part of our 
official record, so I wanted to state that.
    Let me also acknowledge some of our State leaders who are 
here. Senator Gay Kernan is here. I know she's back there 
somewhere. Thank you very much for being here. Senator Harden 
is here. Thank you for being here. Representative Anna Crook is 
here. Thank you for coming. Bill Hume is here. He's the Chief 
Policy Advisor to Governor Richardson on these issues, and we 
appreciate him traveling here. Steven Gamble who is the 
President of Eastern New Mexico is here. Thank you for taking 
time to be here. I know you have got a busy period with school 
starting up, but thanks for coming.
    Before we start with the first panel, Representative Udall 
was not able to be here, but his representative, Chris 
Neubauer, is here to read a letter from Representative Udall 
related to our hearing today. So let me recognize Chris for 
that statement.

   STATEMENT OF CHRIS NEUBAUER ON BEHALF OF TOM UDALL, U.S. 
                 REPRESENTATIVE FROM NEW MEXICO

    Mr. Neubauer. Thank you, Senators, for allowing me a few 
moments of your time. I am going to read a letter of support 
that the Congressman has submitted to the Energy Committee.
    It reads, ``Dear Honorable Senate Energy Committee Members: 
I write in strong support of the Eastern New Mexico Rural Water 
Authority and the Ute Pipeline Project. Water is a scarce 
resource in the southwest, and it is essential that our 
communities are provided with a reliable source of water. The 
Ute Pipeline Project would help ensure that Quay, Curry, and 
Roosevelt Counties have long-term access to water for municipal 
and industrial use.
    In 1959, the New Mexico State Legislature passed an Act 
instructing the State Engineer to create a reservoir on the 
Canadian River, the Ute Reservoir, to help meet the water needs 
of Eastern New Mexico. The Ute Pipeline Project would be the 
first project to use the reservoir for this original purpose. 
The project would provide 24,000-acre feet of water annually 
from the Ute Reservoir and would serve approximately 73,000 
people in a largely rural area averaging four-and-a-half people 
per square mile.
    The water provided by the Ute Pipeline would stimulate 
economic growth in the region, which is threatened by a decline 
in the quantity and quality of groundwater reserves. I believe 
this project is important to help protect the long-term 
prosperity of Eastern New Mexico communities.
    Very truly yours, Tommy Udall, Member of Congress.''
    Thank you, sirs.
    The Chairman. Thank you very much, Chris, and we appreciate 
getting the statement from Congressman Udall. Why don't we go 
ahead now with our first panel, and our first panel consists of 
a representative from the Bureau of Reclamation, David Sabo, 
who is the Assistant Regional Director of Reclamation's Upper 
Colorado Region.
    Welcome, Mr. Sabo. We are glad to have you here. I guess 
what we would ask is that you go ahead and go through your 
testimony or summarize it, make the main points that you are 
intending to make today, and after that, I am sure Senator 
Domenici and I will each have questions.

  STATEMENT OF DAVID SABO, ASSISTANT REGIONAL DIRECTOR, UPPER 
   COLORADO REGION, BUREAU OF RECLAMATION, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Sabo. OK. Thank you. Chairman Bingaman and ranking 
member Domenici, I am Dave Sabo, the Assistant Regional 
Director of the Bureau of Reclamation's Upper Colorado Region.
    I thank you for the opportunity to come here and to return 
home to Clovis to give testimony on the Eastern New Mexico 
Rural Water Project and provide a progress report on 
implementation of the Rural Water Supply Act of 2006. The 
proposed Eastern New Mexico Rural Water Project would provide a 
sustainable water supply here in Clovis and to numerous other 
homes and communities in Eastern New Mexico.
    The project would also provide water to Cannon Air Force 
Base. Currently, this region depends entirely on groundwater, 
and the quantity and quality of this source is diminishing. As 
envisioned, this project would provide over 16,000-acre feet of 
needed water to these communities each year. The most recent 
cost estimate for the project is $436 million. The Federal 
shares expected to be 75 percent.
    Reclamation has worked with the Eastern New Mexico Rural 
Water Authority and their consultants to develop a complete, 
thorough feasibility study. We have testified previously in 
2004 on early draft of legislation to authorize construction. 
Progress continues to be made in completing the project's 
design, cost estimates, financing plan, and environmental 
analysis.
    We will continue to work with the Authority and their 
consultants wherever possible as we move toward finalizing the 
project design and planning.
    Mr. Chairman, as you requested, I would also like to give a 
brief status report on implementation of the Rural Water Supply 
Act of 2006 passed by Congress last year. I would like to first 
thank Senator Domenici for sponsoring and Senator Bingaman for 
being an original co-sponsor of this legislation authorizing 
this important program. I thank you both for your leadership in 
getting it passed into law.
    As you know, implementation of this program will provide a 
clearly defined process for Reclamation in rural communities 
throughout the West to work together to identify options for 
meeting potable water supply needs in a technically feasible 
and cost effective manner. Currently, a team comprised of 
Reclamation's employees from all five regions and from the 
Commissioner's Office is leading the effort to develop the 
rules and criteria for the Rural Water Program.
    Because of the Act's specific timelines and deadlines for 
the development of the criteria, Reclamation has set an 
ambitious timeframe for the rulemaking. The proposed criteria 
are expected to be published in the Federal Register in 
February 2008 and finalized in the summer of 2008. Reclamation 
is aware of significant interest----
    Senator Domenici. Who publishes those?
    Mr. Sabo. I am sorry?
    Senator Domenici. Who publishes those?
    Mr. Sabo. We will publish them in the Federal Register.
    Senator Domenici. You are the ones working on them?
    Mr. Sabo. That's correct.
    Senator Domenici. How far are they along?
    Mr. Sabo. They are in the development process right now.
    Senator Domenici. What?
    Mr. Sabo. They are still in the development process right 
now, the actual rulemaking.
    Senator Domenici. So just getting started?
    Mr. Sabo. They are further along than just getting started. 
We have made quite a bit of progress on them, but we are still 
attempting to meet the schedule. It's an ambitious schedule for 
the area that we have to cover within all the 17 western 
States. We have got to consider all the criteria that would go 
into this.
    Senator Domenici. You have a qualified staff, in your 
opinion?
    Mr. Sabo. Absolutely, Senator.
    Senator Domenici. So all you are saying is ``Let us do 
it?''
    Mr. Sabo. Please.
    Senator Domenici. OK.
    Mr. Sabo. OK. Reclamation is aware of significant interests 
on the part of rural communities in the West in this program. 
We have had conversations with various stakeholder groups and 
plan to hold dialog with Native American tribes. We will 
continue that outreach and dialog throughout the process of 
implementing this new program.
    Once implemented, the Rural Water Supply Program will give 
Reclamation greater ability to review, evaluate, and make 
recommendations to the Congress regarding the feasibility of 
proposed rural water projects such as the Eastern New Mexico 
Rural Water Project. In addition, Title II of the Rural Water 
Supply Act, which authorizes loan guarantees for rural water 
projects, may have some application to Eastern New Mexico.
    Mr. Chairman and ranking member, that concludes my oral 
remarks. I look forward to hearing the testimony of local 
leaders on the Eastern New Mexico Rural Water Project and 
continuing to work with them on this important issue. Thank you 
for the opportunity to testify, and I look forward to your 
questions.
    [The prepared statement of Mr. Sabo follows:]

Prepared Statement of Dave Sabo, Assistant Regional Director, Bureau of 
     Reclamation, Upper Colorado Region, Department of the Interior

    Mr. Chairman and Members of the Committee, my name is Dave Sabo, 
and I am the Assistant Regional Director of the Bureau of Reclamation's 
Upper Colorado Region. I am pleased to be here today on behalf of the 
Department of the Interior to discuss both the status of the Eastern 
New Mexico Rural Water Project, and separately, Reclamation's 
implementation of Public Law 109-451, the Rural Water Supply Act of 
2006.
    Reclamation has been working with the State of New Mexico and local 
parties on developing concepts for the Eastern New Mexico Rural Water 
Project since Congress authorized feasibility studies in 1966. 
Reclamation has participated in a number of studies on this evolving 
project over the years. Since 1998, Congress has provided $1,763,000 
for planning and technical assistance, of which more than $1.2 million 
has been transferred directly to the City of Clovis, acting as the 
fiscal agent for the local communities, for work on the project.
    The proposed Eastern New Mexico Rural Water Project would provide a 
sustainable water supply for the eastern New Mexico municipalities of 
Clovis, Elida, Grady, Melrose, Portales, and Texico, as well as Curry 
and Roosevelt counties and Cannon Air Force Base. The area currently 
depends entirely on a groundwater source that is diminishing in both 
quantity and quality. The currently envisioned project would supply 
16,400 acre-feet of water per year through a pipeline from Ute 
Reservoir, which was built by the State of New Mexico in 1963 as a 
water supply source for eastern New Mexico.
    In 2004, Reclamation testified on legislation (HR 4623) to 
authorize construction of the Eastern New Mexico Rural Water Supply 
Project. During that hearing, Reclamation cited concerns with the 
adequacy of the Conceptual Design Report to support authorization and 
identified some critical questions that needed to be answered before 
construction should proceed, such as whether all economically viable 
alternatives had been considered, whether design and construction costs 
were consistent with comparable projects, and whether the communities 
that would be sharing project costs had an accurate estimate of how 
much those costs might be. Reclamation also expressed concerns with the 
proposed cost sharing formula, which assumed an 80% federal share for 
construction of the project.
    Since that time, a Reclamation ``Oversight Committee'' has been 
assisting the Eastern New Mexico Rural Water Authority (Authority) and 
their consultants in developing a more complete and thorough 
feasibility report.
    A ``Preliminary Engineering Report'' prepared for the Authority by 
their consultant that was submitted in December 2006 represents 
significant progress toward a feasibility-level analysis. Reclamation 
is continuing to work with the Authority as they further develop the 
proposed project's design, cost estimates, financing plan, and 
environmental analysis.
    The Authority is working with their consultant to take the design 
and associated cost estimate to the feasibility level. Feasibility-
level cost estimates are based on information and data which is 
sufficient to permit the preparation of preliminary layouts and designs 
used to estimate each kind, type, or class of material, equipment, and 
labor necessary to complete a project. A second consultant has been 
selected by the Authority to work on National Environmental Policy Act 
compliance. A third consultant for the Authority is working on a 
detailed plan for financing the project.
    The most recent cost estimate for construction, prepared last year 
by the Authority's consultant, is $436 million, with an estimated 
annual operation and maintenance cost of $8.2 million. The local 
communities are planning to pay about 10% of capital costs with state 
and federal shares being 15% and 75% respectively. The local 
communities would pay 100% of the operation, maintenance, and 
replacement costs.
    Because this hearing is not focused on specific project-
authorization legislation, Reclamation cannot provide a statement on 
the relative merits of the project from a policy standpoint. However, 
we are working with the Authority and the State to bring the project to 
a point where a feasibility determination is possible.
    At this point, I would like to comment and, as requested by the 
Committee, provide a status report on Reclamation's implementation of 
Title I of Public Law 109-451, the Rural Water Supply Act of 2006, and 
briefly consider how this new program may be applicable to the Eastern 
New Mexico Rural Water Project.
    In December 2006, Congress and the President enacted the Rural 
Water Supply Act of 2006. Title I authorizes the Secretary of the 
Interior to create a rural water supply program (Program) to address 
rural water needs in the 17 Western United States. We are enthusiastic 
about this Program, as its intent is to enable Reclamation to work 
cooperatively with rural communities across the West in a consistent 
manner to identify rural water supply needs and cost effective options 
for addressing that need. Prior to the enactment of legislation 
authorizing this Program, Reclamation has had no authority to get 
involved--early in the process--in the analysis and development of 
solutions for meeting the potable water supply needs of rural 
communities in the West.
    To summarize, Title I of the Act requires Reclamation to: (1) 
develop programmatic criteria for prioritizing requests for assistance 
under the Program and for determining eligibility for non-Federal 
entities to participate in the Program; (2) develop criteria for what 
must be included in both the appraisal studies and the feasibility 
studies that are to be completed under the Program, in terms of data, 
alternatives, and level of analysis; (3) complete an assessment of the 
rural water programs that exist in other agencies to ensure that we are 
filling an unmet niche and to ensure that we coordinate and leverage 
resources, as well as evaluate the status of rural water projects that 
are already authorized; and (4) complete an annual report of 
Reclamation's staff costs for carrying out the Act.
    We expect there to be great interest in this program and given the 
budget realities, we will not be able to get involved in every worthy 
project. Furthermore, it is important to note that the Act does not 
authorize project construction. Instead, the focus of the Program is on 
ensuring thorough analysis of rural water needs and options through the 
completion of appraisal and feasibility studies that meet program 
criteria. At the end of the process, Reclamation is required to submit 
a feasibility study to Congress. In the report that accompanies each 
study, the Secretary (through Reclamation) will make a recommendation 
to Congress as to whether the project is technically and economically 
feasible, and whether it is in the Federal interest. The report must 
make a recommendation on whether Congress should authorize Federal 
involvement in construction of the rural water supply project that is 
identified, as well as the appropriate non-Federal share of 
construction costs, which must be at least 25% of the total 
construction costs for the proposed project and determined based on an 
analysis of the non-Federal entities' capability-to-pay.
    Before the Rural Water Program can be implemented, P.L. 109-451 
requires that the Secretary (through Reclamation) promulgate and 
publish the program's rules and criteria in the Federal Register. This 
is being done through a rulemaking process in accordance with the 
Administrative Procedure Act (APA) which provides opportunities for 
public review, involvement and comment.
    A team comprised of Reclamation employees from all five regions and 
the Commissioner's office is leading the effort to develop the rules 
and criteria for the rural water program. Because of the Act's specific 
timelines and deadlines for the development of the criteria, 
Reclamation has set an ambitious time-frame for the rulemaking. We 
expect to publish proposed and then final Criteria in the Federal 
Register in the next year.
    Reclamation is aware of significant interest on the part of rural 
communities in the West in this program. We have held conversations 
with various stakeholder groups and plan to hold dialogues with Native 
American Tribes. We will continue that outreach and dialogue throughout 
the process of implementing this new program.
    As I stated earlier, we are enthusiastic about this program, which 
will provide a clearly defined process for Reclamation and rural 
communities throughout the West to work together to identify options 
for meeting potable water supply needs in a technically feasible, 
environmentally responsible, and cost effective manner. P.L. 109-451 
gives Reclamation authority to review, evaluate, and make 
recommendations to the Congress regarding the feasibility of proposed 
rural water projects such as the Eastern New Mexico Rural Water 
Project.
    With all of this work underway, we look forward to finalizing the 
relevant rules and criteria that will underlie this program, and 
working closely with the large base of stakeholders on implementation. 
Thank you for the opportunity to appear today.
    This concludes my statement, and I am happy to answer any questions 
the Committee may have.

    The Chairman. Thank you very much for being here and thanks 
for your testimony. Let me ask a few questions, and then I 
defer to Senator Domenici, and let me start by asking two or 
three questions related to this Eastern New Mexico rural water 
system.
    In your testimony, you note that in 2004, Reclamation 
identified some critical questions that had to be answered 
regarding this project. These include--these were three in 
number, as I read your testimony. No. 1, whether design and 
construction costs were consistent with other projects, which 
is a reasonable question. Second, whether appropriate 
alternatives were considered, and third, whether the 
communities had an accurate estimate of the overall costs 
involved.
    There's a letter dated March 30th that you folks sent to 
Mayor Lansford noting that the pipeline ``appears to be the 
least costly and most suitable way to meet long-term water 
needs in the project area''. So this appears, at least to me, 
to answer one of the three questions.
    In your view, have the other questions also been answered? 
If so, what can you tell us about what you have concluded?
    Mr. Sabo. Thank you, Senator. I think in the letter that we 
sent to Mayor Lansford, we identified other issues that still 
needed to be addressed. Clearly, the design cost, the 
construction cost were of paramount importance. In that letter, 
we agreed with their consultants CH2M Hill that we were only at 
about a 10 percent design capability toward the feasibility 
study, toward meeting the feasibility study requirements.
    That being given, we still have a number of questions which 
need to be answered with regard to the size, the scope, the 
construction cost, and the final cost of the overall project. 
So as we identified in that March letter, there's still a 
number of answers that need to be brought forth before we can 
really say any more about them.
    The Chairman. Let me ask on this, the amount of design work 
that's been done. In that letter, as you indicate, Reclamation 
said that in their view, Eastern New Mexico's project is 
currently at a 10 percent design and cost estimate level, and 
that historically, you have required a more detailed 30 percent 
design in order to support requests for construction. That, I 
think, was the position you took.
    In a 2004 document establishing the oversight committee 
that you mentioned, Reclamation indicated that the level of 
detail in the project's design was ``between an appraisal level 
study and a feasibility level study'', which I am not sure 
exactly what those terms of art mean, but it sounds to me like 
at that time--that was 2004--the project was already between 10 
and 30 percent design.
    Since 2004, the Authority, through State funding, has 
invested--or largely through State funding, has invested at 
least another $2 million in studying and planning the project. 
It sounds from--from the letter you sent to Mayor Lansford that 
the Authority is getting further away from being at 30 percent 
design than they were back in 2004.
    Could you explain your view on this, how much more time you 
think is needed to get to 30 percent design? It seems that--
this thing keeps slip-sliding away from us.
    Mr. Sabo. Thank you for the question. That's actually a 
very good question from the standpoint of this project. As you 
know, when the project was first envisioned in the early--in 
the 60's, it was a much larger project, and it has been sort of 
an evolutionary project over time. It has changed shape, and 
dimension, and size, who the communities are going to be.
    Actually in 2004, what we were assessing at that point in 
time was the project, as it was envisioned at that point in 
time. There's even been some modifications, as I have said, 
some evolution since then.
    In talking with CH2M Hill, the consultants for the 
Authority, this morning, they told me that they envision having 
a full feasibility level study completed by 2009. So, I mean, 
this is really a question that would be more oriented toward 
the Authority, but my belief is, is that, you know, we know now 
the scale of the project. We really now need to proceed forward 
with the actual completion of the feasibility study. So it is 
just really the evolution from 2004 to now that's caused the 
change.
    Senator Domenici. What does that mean?
    The Chairman. Yes. Let me follow up, too, and just ask: You 
are saying that the feasibility study needs to be completed?
    Mr. Sabo. Correct.
    The Chairman. CH2M Hill says that's 2009?
    Mr. Sabo. Correct.
    The Chairman. You will not know--you will not--it will be 
your position that 30 percent design work will not have been 
done until that occurs?
    Mr. Sabo. That's--that's where we are at at this point in 
time in the discussions with the Authority.
    The Chairman. So you would not be able to take a position, 
you, the Administration, would not be able to take a position 
in favor of legislation on the project until that is complete?
    Mr. Sabo. As you know, really, before we can take a 
position, the criteria that have been outlined in the Rural 
Water Supply Act of 2006 has to be completed, so we have to be 
able to go through that. So not only will we have to have the 
feasibility study, but we'll also have to have the criteria 
completed at that time to be able to go forward with supporting 
the project. Our belief is, is that this is a good project. 
There's no question.
    Senator Domenici. What?
    Mr. Sabo. Our belief is that this is a very good project 
from the standpoint of being able to meet the needs of the 
rural areas of New Mexico, but before we can really take a 
position supporting it, we have to be able to comply with the 
Act of 2006 and also have the feasibility study complete.
    The Chairman. Senator Domenici, why don't you go ahead with 
your questions?
    Senator Domenici. Sir, we have had the leadership of this 
community come see us. I am not trying to speak for more than 
myself, but we have been around together, so I guess I can 
continue to use the word ``us.''
    We have had the community leadership tell us this is the 
most important project. It's absolutely necessary. We have had 
you, the Bureau, come along like puppy dogs. You are doing all 
the work and everything is getting going, but when we really 
get to it, you are not there. You can't do this because you 
can't do that, and can't do the other because you can't do 
this. I don't know where we are.
    Seems to me this is a pretty straightforward deal. I mean, 
do you have the money? Do you have the authority? Do you have 
the direction from the legislation to proceed to do this or 
not?
    Mr. Sabo. We do, Senator.
    Senator Domenici. Then why don't you do it?
    Mr. Sabo. Because we still have to comply with provisions 
of the Act that you passed.
    Senator Domenici. Why don't you do that?
    Mr. Sabo. We are. We are. We are moving forward with that 
as expeditiously as we possibly can. Senator, we really believe 
the tool that you gave us in 2006 allows us to move forward, 
but until that point in time, we didn't really have the 
capability to be able to do this. We really, as you know----
    Senator Domenici. What did we give you in 2006?
    Mr. Sabo. The Rural Water Supply Act of 2006.
    Senator Domenici. In that Act, what did we give you?
    Mr. Sabo. It gave us--it gave the Secretary of Interior the 
ability to define the criteria by which we can support these 
projects.
    Senator Domenici. That's what you are going to try to do?
    Mr. Sabo. Absolutely.
    Senator Domenici. Is that a tough chore?
    Mr. Sabo. It is a chore to go through the administrative 
procedures process to comply with the provisions of the Act, 
but it's a chore that we have regularly done and we will 
complete.
    Senator Domenici. So it is not overly burdensome and----
    Mr. Sabo. Absolutely not. We believe that it is 
imperative--sir, we really believe that we need to have that 
tool in place. It is not just Eastern New Mexico. It is the 17 
western States that are confronting these same kinds of issues, 
and you have given us that opportunity to be able to do that.
    Senator Domenici. Senator Bingaman, I don't know how you 
feel, but I am glad we came down. Somehow or another, we have 
to get out of the quagmire onto solid ground, and I don't know 
what that is. Is it just to get from the Bureau that they have 
got sufficient money, and they have got sufficient authority, 
and they are going to proceed? I guess that's what I would like 
to know, and I don't know if you are the person to give it to 
us or not. Do we have to go above you and get somebody else to 
tell the Congress that they are going to proceed with this 
project and that they understand what they are doing?
    Mr. Sabo. We will proceed with the development of the 
criteria, and then we'll use the criteria to assess this 
project to be able to take a position as to whether we can 
support this project or not.
    Senator Domenici. Thank you.
    The Chairman. Thank you. Let me ask another couple of 
questions before we move to our second panel. Given the 
schedule that you have laid out for us, does the Bureau of 
Reclamation expect to request funding for the rural water 
program in the 2009 budget?
    Mr. Sabo. At this point in time, I can't speak to the 
President's budget for 2009. We did request $1 million in 2008 
for Title II, to be able to proceed with that, of the Act, but 
until we complete the rulemaking and the needs assessment, I 
can't say whether we'll take a position on requesting funding 
for this particular project. I apologize for that.
    The Chairman. Yes. Let me ask: As I understand, one of the 
things that's in the Act we passed last year, the 2006 Act, is 
a requirement that you develop a rural water needs assessment.
    Mr. Sabo. That's correct.
    The Chairman. When do you expect that report to be 
completed?
    Mr. Sabo. That report is to be completed in December 2008.
    The Chairman. 2008? So it is another 17 months from now?
    Mr. Sabo. Correct.
    The Chairman. Or 16 months from now?
    Senator Domenici. But the needs is not us. It's all of it, 
all the west.
    Mr. Sabo. That's correct. It is a very extensive process.
    The Chairman. In 2004, the committee had a hearing on a 
bill that I had introduced in the 108th Congress to authorize 
this project. I referred to that in the opening comments that I 
made.
    In response to one of my questions concerning the lack of 
Bureau of Reclamation's support for the project, Reclamation 
stated that its rural water activities were reviewed by the 
Office of Management and Budget, which concluded that 
``stronger controls for rural water project development are 
needed and lack of Reclamation involvement during project 
development increases the probability of projects that are not 
successful according to the Federal Program Assessment 
Measures.''
    Could you tell us which of the authorized rural projects 
have not been successful?
    Mr. Sabo. That's an interesting question from the 
standpoint that you are asking Reclamation to be able to 
evaluate retroactively projects that are under construction or 
have been completed based on, really, the criteria that you 
guys--you, the Senators, provided to us, the tool to be able to 
make that assessment. In other words, once we had the criteria 
developed, then we'll be able to satisfy, I think, OMB's issues 
with regard to the potential success of a project.
    But to be honest with you, I am not probably the person to 
answer the question about the success of other rural water 
projects since I really--it's outside of my region, and I 
haven't really participated in those, but let me----
    The Chairman. Could we perhaps ask that you, as the 
representative for the Bureau of Reclamation, get back to the 
committee with an answer to the question of which of the--as I 
understand it, Reclamation has 10 authorized rural water 
projects that it is currently responsible for. Congress has 
authorized 10.
    Could you maybe get back to us with information about how 
many of those projects have been completed, how many of them 
construction has been completed on, and also whether any of 
those projects met the 30 percent design level that Reclamation 
is insisting upon here before they were authorized by the 
Congress?
    Mr. Sabo. Yes, sir.
    The Chairman. OK.
    Mr. Sabo. Absolutely.
    The Chairman. That would be useful information. Did you 
have some other questions?
    Senator Domenici. No. I think that's perfect. If we get 
that soon, I think we'll know where we are.
    The Chairman. All right. Thank you again for being here, 
and we appreciate your testimony very much, and we will move on 
to the second panel.
    Mr. Sabo. Thank you very much, Senators.
    The Chairman. Let me go through the full list of our 
witnesses here. Our State Engineer is on the second panel, 
Mayor David Lansford, Mayor Orlando Ortega, both with the 
Eastern New Mexico Rural Water Authority; John D'Antonio, our 
State Engineer; Darrel Bostwick with the Ute Water Commission. 
That's our second panel.
    Let me also acknowledge the presence of the Senate Minority 
Floor Leader, Stuart Ingle, from Portales. Thank you for being 
here. We appreciate you arriving. Welcome to each of you.
    Mayor Lansford, why don't we start with you and just go 
across the table here. If you can just tell us the main things 
you think we need to know about this project, and then we'll 
undoubtedly have some questions for you.

  STATEMENT OF DAVID LANSFORD, MAYOR, CLOVIS, NEW MEXICO, AND 
 CHAIRMAN, EASTERN NEW MEXICO RURAL WATER AUTHORITY, CLOVIS, NM

    Mr. Lansford. Thank you, Mr. Chairman. Mr. Chairman, 
ranking member Domenici, and committee members, my name is 
David Lansford, and I currently serve as the Mayor of Clovis, 
New Mexico. In addition, I also serve as Chairman of the 
Eastern New Mexico Rural Water Authority. The city of Clovis 
serves as a physical agent for the project and residents in 
Curry County represent over 50 percent of the population that 
will be served by the proposed Eastern New Mexico Rural Water 
System.
    Joining me today is Orlando Ortega, Mayor of Portales, New 
Mexico. Mayor Ortega currently serves as the Vice Chairman of 
the Eastern New Mexico Rural Water Authority. We are joined by 
a number of supporters today, and in your packets, you will 
find a collection of letters of support from government 
officials and grassroots community leaders regarding the Water 
Authority's proposed project.
    One of the most significant challenges facing Clovis in the 
21st century, if not the most significant challenge, is the 
provision of a sustainable water supply for Eastern New Mexico. 
Over the last 40 years, numerous studies have indicated the 
need for the development of a renewable water supply for Curry 
and Roosevelt Counties.
    Communities within Curry and Roosevelt including Clovis, 
Portales, Elida, Grady, Melrose, and Texico rely solely on 
water reserves located in the Ogallala High Plains aquifer. 
However, every study available clearly demonstrates that this 
aquifer is being depleted. Local, State, and Federal Government 
officials cannot ignore the facts highlighting our declining 
water supply. We must take significant action today to ensure 
the growth and viability of Eastern New Mexico for generations 
to come.
    There are a number of things that communities in our 
effected region must do to protect our water supply including 
the enactment of conservation methods and techniques. Yet, 
municipal conservation is not adequate considering the amount 
of water being used for agricultural irrigation. Current 
estimates indicate that over 90 percent of the water taken from 
the Ogallala aquifer is for agricultural purposes, and that 
poses a challenging situation considering the fact that 
agriculture is the bedrock of our local economy.
    The Eastern New Mexico Rural Water System commonly referred 
to as the Ute Water Pipeline Project offers the most efficient, 
cost effective, and dependable solution for our ever present 
water challenges.
    In the 1950s, the State of New Mexico funded the 
construction of a dam on the Canadian River which created Ute 
Reservoir. The purpose of this reservoir is to provide a 
domestic water resource for the citizens of Eastern New Mexico. 
Several communities including Clovis have reserved water rights 
at the reservoir, and we have established the Water Authority 
to lead the development effort that will bring water via a 
pipeline to communities within Curry and Roosevelt Counties. 
This pipeline represents the best alternative for providing a 
sustainable water supply for Eastern New Mexico well into the 
next century.
    In addition, this project seeks to eliminate competition 
for water resources that exist between municipal, industrial, 
and agricultural water users.
    Senator Domenici. How much water is there now? How many 
water rights are encompassed in the dam?
    Mr. Lansford. There's 12 communities that actually have 
water reserved in the reservoir, and then there's eight 
communities within the Water Authority that are actively 
pursuing the development of the project.
    Senator Domenici. Thank you, Mayor.
    Mr. Lansford. A sustainable supply of water is critical to 
the socioeconomic future of Eastern New Mexico. Our region 
supports a number of industries including dairy, large scale 
food production and processing, ethanol refining, a critical 
military presence, and colleges and universities among others.
    We have been studying the efficiency of the Ute Water 
Pipeline Project for a number of years, and our consultant team 
has completed and submitted over 20 volumes of technical 
memoranda on the project examining groundwater conditions, 
population growth and water demand, conservation and reuse, 
existing water systems, evaluation of alternatives, 
environmental issues, Ute Reservoir operations, water treatment 
needs, power service and wind power potential, cost estimating 
and hydraulic optimization.
    In short, our plans for the Ute Water Pipeline Project have 
been thorough and comprehensive. We are here today to urge the 
U.S. Senate Energy and Natural Resources Committee and New 
Mexico's Congressional Delegation to expeditiously introduce 
Federal legislation authorizing the financing, planning, 
design, and construction of the Ute Water Pipeline at a Federal 
cost share of 75 percent.
    The Eastern New Mexico Rural Water Authority has been 
working diligently and with limited resources to address the 
water needs of our area, but a Federal authorization is 
absolutely critical to making the Ute Water Pipeline a reality. 
On behalf of the eight public entities that comprise the 
Eastern New Mexico Rural Water Authority, we are appreciative 
of this opportunity to discuss our region's long-term water 
needs, and we look forward to working in concert with you to 
protect the economic, health, and welfare of the citizens and 
businesses of Eastern New Mexico. My colleagues and I will be 
more than happy to answer questions. Thank you very much for 
your time.
    [The prepared statement of Mr. Lansford follows:]

 Prepared Statement of David Lansford, Mayor, Clovis, New Mexico, and 
     Chairman, Eastern New Mexico Rural Water Authority, Clovis, NM
    Mr. Chairman, Ranking Member Domenici, and committee members:

    My name is David Lansford, and I currently serve as Mayor of 
Clovis, New Mexico. In addition, I also serve as Chairman of the 
Eastern New Mexico Rural Water Authority. The City of Clovis serves as 
the fiscal agent for the project, and residents in Curry County 
represent over fifty percent of the population that will be served by 
the proposed Eastern New Mexico Rural Water System.
    Joining me today is Orlando Ortega, Mayor of Portales, New Mexico. 
Mayor Ortega currently serves as Vice Chairman of the Eastern New 
Mexico Rural Water Authority. We are joined by a number of supporters 
today, and in your packets you will find a collection of letters of 
support from government officials and grassroots community leaders 
regarding the water authority's proposed project.
    One of the most significant challenges facing Clovis in the 21st 
century if not the most significant challenge--is the provision of a 
sustainable water supply for eastern New Mexico.
    Over the last 40 years, numerous studies have indicated the need 
for the development of a renewable water supply for Curry and Roosevelt 
counties. Communities within Curry and Roosevelt--including Clovis, 
Portales, Elida, Grady, Melrose, and Texico--rely solely on water 
reserves located in the Ogallala/High Plains aquifer. However, every 
study available clearly demonstrates that this aquifer is being 
depleted.
    Local, state, and federal government officials cannot ignore the 
facts highlighting our declining water supply. We must take significant 
action today to ensure the growth and viability of eastern New Mexico 
for generations to come.
    There are a number of things that communities in our affected 
region must to do to protect our water supply--including the enactment 
of conservation methods and techniques--yet municipal conservation is 
not adequate considering the amount of water being used for 
agricultural irrigation. Current estimates indicate that over 90% of 
the water taken from the Ogallala aquifer is for agricultural purposes, 
and that poses a challenging situation, considering the fact that 
agriculture is the bedrock of our local economy.
    The Eastern New Mexico Rural Water System, commonly referred to as 
the Ute Water Pipeline Project, offers the most efficient, cost-
effective, and dependable solution for our ever present water 
challenges. The concept of this project is almost fifty years old.
    In the 1950s, the State of New Mexico funded the construction of a 
dam on the Canadian River, which created Ute Reservoir. The purpose of 
this reservoir is to provide a domestic water resource for the citizens 
of eastern New Mexico. Several communities, including Clovis, have 
reserved water rights at the reservoir, and we've established the water 
authority to lead the development effort that will bring water via a 
pipeline to communities within Curry and Roosevelt counties.
    This pipeline represents the best alternative for providing a 
sustainable water supply for eastern New Mexico, well into the next 
century. In addition, this project seeks to eliminate competition for 
water resources that exist between municipal, industrial, and 
agricultural water users.
    A sustainable supply of water at these levels--whether municipal, 
industrial, or agricultural--is critical to the socio-economic future 
of eastern New Mexico. Our region supports a number of industries, 
including dairy, large-scale food production and processing, ethanol 
refining, a critical military presence at Cannon Air Force Base, and 
colleges and universities, among others.
    We have been studying the efficacy of the Ute Water Pipeline 
Project for a number of years, and our consultant team has completed 
and submitted over 20 volumes of technical memoranda on the project, 
examining groundwater conditions, population growth and water demand, 
conservation and reuse, existing water systems, evaluation of 
alternatives, environmental issues, Ute Reservoir operations, water 
treatment needs, power service and wind power potential, cost 
estimating, and hydraulic optimization. In short, our plans for the Ute 
Water Pipeline Project have been thorough and comprehensive.
    We are here today to urge the U.S. Senate Energy and Natural 
Resources committee, and New Mexico's Congressional Delegation, to 
expeditiously introduce federal legislation authorizing the financing, 
planning, design, and construction of the Ute Water Pipeline, at a 
Federal cost share of seventy-five percent. The Eastern New Mexico 
Rural Water Authority has been working diligently and with limited 
resources to address the water needs of our area, but a federal 
authorization is absolutely critical to making the Ute Water Pipeline a 
reality.
    On behalf of the eight public entities that comprise the Eastern 
New Mexico Rural Water Authority, we are appreciative of this 
opportunity to discuss our region's long-term water needs, and we look 
forward to working in concert with you to protect the economic health 
and welfare of the citizens and businesses of eastern New Mexico.
    My colleagues and I will be more than happy to answer any of your 
questions regarding this project. Thank you for your time and 
consideration.

                   Attachment.--Ute Pipeline Project

  <bullet> Eight cities and counties on the eastern side of New Mexico 
        make up the Eastern NM Rural Water Authority (ENMRWA), 
        including: Clovis, Curry County, Elida, Grady, Melrose, 
        Portales, Roosevelt County and Texico.
  <bullet> Presently, municipal and commercial water supply to the 
        region is provided entirely by groundwater from the Ogallala 
        formation of the High Plains Aquifer.
  <bullet> Groundwater levels in the region are declining at an average 
        rate of approximately 2.6 ft/yr.
  <bullet> The NE New Mexico Regional Water Plan (June 2006) 
        specifically identifies the ENMRWS as a priority strategy for 
        long term sustainable water supply to the region.
  <bullet> There is no viable or more cost effective alternative to a 
        Ute pipeline project. Other than the surface water from Ute 
        Reservoir available to New Mexico through the Canadian River 
        Compact, there is not a sustainable water supply available to 
        the citizens of eastern New Mexico.
  <bullet> A brackish water supply project using aquifers located below 
        the Ogallala is not viable economically nor is it sustainable. 
        The only potential alternative for making the fresh groundwater 
        supply sustainable is rapid, large-scale buyout and retirement 
        of irrigated agriculture at massive cost and an undesirable 
        (some say catastrophic) socio-economic impact.
  <bullet> A sustainable supply of municipal and industrial water is 
        critical to the socio-economic future of eastern New Mexico and 
        is in the national interest. The area supports large scale food 
        production (peanuts, cheese, milk and milk products), an 
        expanding ethanol industry, a regional education complex 
        (Eastern NM University), extensive railway commerce, a critical 
        military presence at Cannon AFB, and regional large scale wind 
        power development.
  <bullet> The City of Clovis' Comprehensive Plan (2007) identifies the 
        development of a long-term sustainable water supply for the 
        region as its #1 Infrastructure Goal, with five main 
        components:

    --Implement the ENMRWS as quickly as possible.
    --Protect the quality of existing water supplies in Ute Reservoir 
            and the Ogallala aquifer.
    --Implement an effective water conservation program.
    --Implement an effective wastewater reuse program.
    --Continue to identify, evaluate and plan for new long-range water 
            sources.

  <bullet> Stringent conservation and reuse programs, coupled with 
        retirement of much agricultural pumping could prolong the 
        present groundwater supply in the Ogallala, but probably for 
        only a decade or two based on simulations made with several 
        groundwater models.
  <bullet> Failure to use the supply of New Mexico water available in 
        Ute Reservoir for Municipal and Industrial purposes could lead 
        to it being ``lost to Texas'' under provisions of the Canadian 
        River Compact.
  <bullet> In February 2005, Reclamation, through a specially assembled 
        ``oversight committee,'' provided a review of the ENMRWS 
        Conceptual Design Report and related documents. The review 
        document posed seven (7) basic questions that the committee 
        felt needed further development, as follows:

    --Need for the Project.
    --Thorough Analysis of Existing Water Supply Resources.
    --Alternatives Analysis.
    --Environmental Considerations.
    --Design and Cost Estimates.
    --Benefits/Cost Analysis.
    --Cost Sharing.

    Since receiving the review report the ENMRWA working with 
Reclamation, the NM Interstate Stream Commission, Office of the State 
Engineer, and its technical consultants have addressed each of the 
questions and comments in considerable detail and as a collaborative 
effort. Of the seven items, the outstanding issues remaining include:

    --Completion of the environmental investigations and documentation 
            (NEPA). This effort is underway and is being done in 
            parallel with the preparation of 30% design documents.
    --Completion of the Benefit/Cost Analysis. This effort is a 
            collaboration between the ENMRWA consultant team and 
            Reclamation's Denver Technical Center staff. A great deal 
            of background work has been done--completion is anticipated 
            by the end of 2007.
    --Final concurrence on the Federal/non-Federal cost sharing 
            arrangement. The model proposed by the ENMRWA and State of 
            New Mexico recommends a 10% Local--15% State--75% Federal 
            participation based on prior economic studies, local and 
            state financial planning activities and regional rural 
            water supply project experience in other Reclamation 
            states.

  <bullet> The ENMRWA consultant team has completed 20+ technical 
        memoranda on the project including groundwater conditions, 
        population growth and water demand (need), conservation and 
        reuse, existing water systems, evaluation of alternatives, 
        environmental issues, Ute Reservoir operations, water treatment 
        needs, power service and wind power potential, cost estimating 
        guide, and hydraulic optimization of the system. At the end of 
        the day, all of the recent study efforts and those going back 
        over the past 44 years conclude that the Ute Pipeline project 
        is the solution.
  <bullet> The ENMRWA, through ongoing consulting contracts, has 
        completed a 10% level design on the entire project which will 
        serve as the ``best technical alternative'' (BTA) in the 
        environmental process. The 10% design documents include: 
        pipelines, pump stations, water treatment and administration 
        facilities, electrical and controls, Ute Reservoir intake 
        structure, storage, corrosion and architecture.
  <bullet> The environmental investigations and documentation phase 
        (NEPA) is presently underway and will take approximately two 
        years to complete.
  <bullet> The layout and capacity of the presently proposed BTA water 
        supply project has been optimized in the latest engineering 
        work by design consultants to be the most hydraulically 
        efficient, cost effective project possible. The latest 
        engineering work validates the work of at least three previous 
        studies done by various agencies and consultants--each of which 
        recommended a project with a configuration and route similar to 
        that now proposed.
  <bullet> The current cost estimate is $436 million (2006$) and the 
        project is expected to incur an $8 to 9 million annual 
        operation and maintenance (O&M) cost. O&M will be entirely 
        borne by the users and these costs are included in the 
        projected wholesale water rates.
  <bullet> To date, the State of New Mexico has provided significant 
        investment in the project having authorized or appropriated 
        approximately $7.5 million to advance the planning and design 
        of the project and to prepare associated environmental 
        investigations and documentation (NEPA). Out of hundreds of 
        projects submitting applications for funding through the NM 
        Water Trust Board since its inception, the ENMRWS has 
        consistently ranked in the top tier of projects and was the #1 
        and #2 ranked project in the state over the past two fiscal 
        years.
  <bullet> The recent steep escalation in construction costs indicates 
        that postponing the project may lead to greatly increased 
        costs--escalation of construction costs is outpacing general 
        economic inflation by 2-3% per year.
  <bullet> With the proposed Federal cost share at 75%, the projected 
        wholesale cost of water to ENMRWA members is on the order of 
        $2.25-2.50/1000 gallons (2006$). Coupled with additional 
        charges to keep local distributions systems and some of wells 
        operational as back up supply, this is still within the range 
        of about $3.00/1000 gallons presently paid by several NM 
        communities.
  <bullet> Based on recent dialogue with the NM Congressional 
        Delegation and staff it is anticipated that federal authorizing 
        legislation (at a 75% federal share) could be re-introduced in 
        committee in early 2008. The 25% non-federal cost share is 
        anticipated to be borne by the ENMRWA members and the State of 
        New Mexico.
  <bullet> Unlike many other water projects in New Mexico and the 
        southwest, the proposed ENMRWS project has no known or 
        anticipated significant environmental issues, no associated 
        Native American settlement, and no water rights disputes. The 
        water in Ute Reservoir is owned by the state and administered 
        by the NM Interstate Stream Commission (ISC). The ISC and the 
        members of the Ute Reservoir Water Commission, which includes 
        the eight ENMRWA members, have a relatively straightforward 
        water purchase agreement in effect.
  <bullet> Programmed next steps for the ENMRWA include completion of 
        NEPA activities, completion of an updated financial plan and 
        economic study (December 2007), completion of a 30% level 
        design effort, a subsequent Value Engineering (VE) study, 
        right-of-way planning, property owner liaison and continued 
        public involvement.
  <bullet> The ENMRWA members adopted a Strategic Plan for the project 
        with aggressive goals for the next two years (2007-2009) at 
        their monthly meeting in Portales in July 2007, as follows:

    --Obtain Federal Authorization by October 1, 2008.
    --Initiate a ``full court press'' project campaign, starting in 
            August 2007 including:

          Part 1--Coalition building
          Part 2--Federal Action plan
          Part 3--State Action plan

    --Convert organizational structure to formal water ``Authority'' by 
            July 1, 2008.
    --Complete 30% level design of entire project by May 1, 2009.
    --Complete structured independent Value Engineering analysis 
            following 30% design.
    --Complete environmental investigations and documentation (NEPA 
            activities) by December 2009.
    --Complete Financing and Funding Plan by December 2007 including:

          ENMRWA member financial planning.
          Reclamation led Economic Benefits study.

  <bullet> On behalf of the eight member entities of the ENMRWA and our 
        citizens and businesses we sincerely appreciate your continued 
        support of this critical project and for holding this field 
        hearing in eastern New Mexico. Collectively, we have made major 
        investments in this project in time, energy, resources and 
        funds with the full recognition that the cost of inaction will 
        be much greater down the road without it.
  <bullet> This field hearing represents a critical milestone in the 
        project's overall development and we look forward to carrying 
        this momentum into the next important milestone steps of 
        authorization, design, construction and water delivery.

    The Chairman. Thank you very much. Mayor Ortega, we are 
glad to have you here, and thank you for your leadership along 
with Mayor Lansford on this project.

 STATEMENT OF ORLANDO ORTEGA, MAYOR, PORTALES, NEW MEXICO, AND 
   VICE CHAIRMAN, EASTERN NEW MEXICO RURAL WATER AUTHORITY, 
                          PORTALES, NM

    Mr. Ortega. Thank you, Senator Bingaman.
    Senator Domenici. Good to have you here.
    Mr. Ortega. Senator Domenici, good to see you. I do have 
prepared this statement here, testimony that I would like to 
present to you. My name is Orlando Ortega, Mayor of Portales, 
New Mexico and Vice Chair of the Eastern New Mexico Rural Water 
Authority.
    First, I would like to take this opportunity to thank you 
to allow us to testify before your committee regarding our 
critical need to build this Ute Pipeline Project, and I 
personally want to express to both of you my deepest 
appreciation for your continued support of the Ute Pipeline 
Project and for your efforts on behalf of improving the quality 
and sustainability of the water supply for communities across 
Eastern New Mexico including Clovis, Portales, Melrose, Texico, 
Grady, and Elida and Curry and Roosevelt Counties.
    As you know, we enjoy a great quality of life in Portales. 
We are home to Eastern New Mexico University, one of the 
largest universities in the State. We are one of the principal 
producers of the Valencia peanuts in the U.S. and are best 
known for our successful growing dairy industry.
    Last year, we ranked 15th in the Nation and 9th in the 
western United States in overall quality of life by a national 
journal publication for micropolitan communities. That's a 
population up to 50,000. This success comes as no surprise to 
us.
    Our community as a whole is very focused and has worked 
diligently for years to provide the finest quality of life 
while offering the best opportunities possible to all who 
choose to live here. Our community is prospering and is 
experiencing positive growth. I tell you this because our 
nearly 19,000 citizens, over 500 registered businesses and 
industries and our State and local government officials are 
fully committed to preserving this community for generations to 
come.
    We are developing and implementing water conservation 
measures which clearly demonstrate that stewardship of our 
water supply is of paramount importance to our economic future. 
We declared the summer of 2007 to be a water-wise summer and 
have set a goal of saving 5 percent water usage per month from 
May through August, a goal that we have been very successful in 
meeting.
    While we have been working to improve our water supply in a 
variety of ways, including the purchase of additional property 
and water rights, we must also aggressively continue to explore 
other alternatives to ensure the continued availability of 
water for our region.
    Just recently, we have added four new wells in our water 
well field and have installed pipe to add another six wells. We 
are continuously establishing new wells and refining our 
control system in order to keep pace with today's demands. We 
are currently pumping an average of six to 6.2 million gallons 
daily with peak demands of 9 million gallons.
    Yet, at last report, many of our wells are still dropping, 
many at an average rate of two-and-a-half feet per year. 
Experts estimate that our current water supply under today's 
demand will only last another 18 years. It is time to address 
other ways to improve our water supply. Today, the most viable 
alternative is construction of the Ute Pipeline, which has the 
potential to provide Eastern New Mexico with a long-term 
renewable water source by linking our communities to Ute 
Reservoir.
    There is no question that the cost of this project is 
considerable, but with the assistance of Congress, the State of 
New Mexico, and contributions from communities like the city of 
Portales, we are confident that this important pipeline can be 
built.
    Significant progress has been made on this project. Working 
together, the Legislature and Governor Richardson have invested 
millions of dollars in the Water Trust Fund, which seeks to 
provide funding for water projects across New Mexico. Now we 
look forward to the most critical turning point, which leads me 
to appear before you today.
    We are here today to collectively seek your support in 
obtaining a commitment to provide an authorization and 
subsequent funding of the Ute Pipeline. We recognize the 
difficult decisions that you face in weighing the merits of 
numerous projects and many serious water needs around our State 
and throughout the country.
    However, we cannot emphasize strongly enough how important 
this project is for our member entities and for the citizens 
and businesses of Eastern New Mexico. Much discussion has taken 
place regarding the ability and willingness to support a 
project of this size. Simply, many have asked, ``Can we afford 
the cost?'' However, the more pressing question is not if we 
can afford to fund the Ute Pipeline project, but rather can we 
afford not to fund this project.
    The long-term sustainability and economic viability of 
communities in Eastern New Mexico is at serious risk, and we 
must take action now to protect this region for generations to 
come. Thank you again for the opportunity to present our 
request at this very important hearing.
    [The prepared statement of Mr. Ortega follows:]

Prepared Statement of Orlando Ortega, Mayor, Portales, New Mexico, and 
 Vice Chairman, Eastern New Mexico Rural Water Authority, Portales, NM
    Mr. Chairman and Senator Domenici: My name is Orlando Ortega, Mayor 
of Portales, New Mexico and Vice Chair of the Eastern New Mexico Rural 
Water Authority.
    First, I would like to thank you for the opportunity to testify 
before your Committee regarding our critical need to build the Ute 
Pipeline project. And I personally want to express to both of you my 
deepest appreciation for your continued support of the Ute Pipeline 
Project, and for your efforts on behalf of improving the quality and 
sustainability of the water supply for communities across eastern New 
Mexico--including Clovis, Portales, Melrose, Texico, Grady, and Elida, 
and Curry and Roosevelt Counties.
    As you know, we enjoy a great quality of life in Portales. We are 
home to Eastern New Mexico University, one of largest universities in 
the state. We are one of the principal producers of Valencia peanuts in 
the United States, and are best known for our successful, growing dairy 
industry. Last year, we ranked fifteenth in the nation and ninth in the 
western United States in overall quality of life by a national journal 
publication for micropolitan communities, populations of 10 to 50 
thousand.
    This success comes as no surprise to us. Our community, as a whole, 
is very focused and has worked diligently for years to provide the 
finest quality of life--while offering the best opportunities 
possible--to all who choose to live here. Our community is prospering 
and is experiencing positive growth. I tell you this because our nearly 
19,000 citizens, over 500 registered businesses and industries and our 
state and local government officials are fully committed to preserving 
this community for generations to come.
    We are developing and implementing water conservation measures 
which clearly demonstrate that stewardship of our water supply is of 
paramount importance to our economic future. We declared the summer of 
2007 to be a ``water-wise summer,'' and have set a goal of saving five 
percent water usage per month from May through August, a goal that we 
have been successful in meeting.
    While we have been working to improve our water supply in a variety 
of ways, including the purchase of additional property and water 
rights, we must also aggressively continue to explore other 
alternatives to ensure the continued availability of water for our 
region.
    Just recently, we have added four new wells and ran pipe to add 
another six wells. We are continuously establishing new wells and 
refining our control system in order to keep pace with our water 
demands. We are currently pumping around 6 to 6.2 million gallons daily 
with peak demands of 9 million gallons. Yet, at last report, many of 
our wells are still dropping at an average rate of 2.5 feet per year. 
Experts estimate that our current water supply under today's demand 
will only last another 18 years.
    It is time to address other ways to improve our water supply. 
Today, the most viable alternative is construction of the Ute Pipeline, 
which has the potential to provide eastern New Mexico with a long-term, 
renewable water source by linking our communities to Ute Reservoir. 
There is no question that the costs of this project are considerable, 
but with the assistance of Congress, the State of New Mexico, and 
contributions from communities like the City of Portales, we are 
confident that this important pipeline can be built.
    Significant progress has been made on this project. Working 
together, the Legislature and Governor Richardson have invested 
millions of dollars in the Water Trust Fund, which seeks to provide 
funding for water projects across New Mexico. And now we look forward 
to the most critical turning point, which leads me to appear before you 
today. We are here today to collectively seek your support in obtaining 
a commitment to provide an authorization and subsequent funding for the 
Ute Pipeline.
    We recognize the difficult decisions that you face in weighing the 
merits of numerous projects and many serious water needs around our 
state and throughout the country. However, we cannot emphasize strongly 
enough how important this project is for our member entities and for 
the citizens and businesses of eastern New Mexico.
    Much discussion has taken place regarding the ability and 
willingness to support a project of this size. Simply, many have asked, 
``Can we afford the cost?''
    However, the more pressing question is not if we can afford to fund 
the Ute Pipeline Project, but rather, ``Can we afford not to fund this 
project?'' The long-term sustainability and economic viability of 
communities in eastern New Mexico is at serious risk, and we must take 
action now to protect this region for generations to come.
    Thank you again for the opportunity to present our request at this 
important hearing.

    The Chairman. Thank you very much for the excellent 
testimony. Why don't we go right to the testimony now of our 
State Engineer, John D'Antonio? Thank you for being here.

 STATEMENT OF JOHN D'ANTONIO, JR., NEW MEXICO STATE ENGINEER, 
 AND SECRETARY, NEW MEXICO INTERSTATE STREAM COMMISSION, SANTA 
                             FE, NM

    Mr. D'Antonio. Thank you, Mr. Chairman, Chairman Bingaman, 
and Ranking Member Domenici. I am pleased to offer testimony 
today regarding the Ute Pipeline Project. I am the New Mexico 
State Engineer and Secretary of the New Mexico Interstate 
Stream Commission.
    The Ute Reservoir is a valuable asset of the State of New 
Mexico and the Ute Pipeline Project is an important water 
supply project for Eastern New Mexico communities. The State of 
New Mexico supports the Ute Pipeline project and has invested 
funding and staff support toward the planning of this project 
for several years.
    Anticipating the potential water needs of Eastern New 
Mexico and in the interest of minimizing New Mexico's use of 
water--or maximizing the use of water from the Canadian River, 
New Mexico ISC completed the construction of the Ute Dam and 
Reservoir in 1962 at a present-day cost of over $125 million.
    The reservoir was constructed for the specific purpose of 
providing sustainable drinking water supply for the people of 
Eastern New Mexico. The ISC owns and operates the dam and 
reservoir for the benefit of New Mexico.
    Pursuant to the Canadian River Compact, New Mexico is 
allowed to store up to 200,000-acre feet of water for use in 
New Mexico from the Canadian River system below Conchas Dam. 
The Ute Reservoir stores approximately 200,000-acre feet of 
water pursuant to a permit issued by the State Engineer in 
1962. New Mexico is committed to maintaining the safety of Ute 
Dam and beneficially utilizing its waters.
    Senator Domenici. Where does the State Engineer get the 
water?
    Mr. D'Antonio. Senator Domenici, the water comes as a 
result of a lot of its snow pack through the Canadian River 
system, and there is a compact with the State of Texas. We 
actually were in--pretty good water year last year and wound up 
sending about 8,000-acre feet down to Texas, which is about 
half of what these communities are going to be using in a given 
year, and it was just free water for the State of Texas.
    The Chairman. I saw something in the paper this morning 
that it is 96 percent full now, and if it gets to 100 percent, 
we then have to send more to Texas, right?
    Mr. D'Antonio: Yes.
    The Chairman. That's another reason we need to build this 
pipeline.
    Senator Domenici. What you are busy at is making sure that 
the water rights that we are supposed to get, that we're ready 
for them, and that we have the facilities, and all of the other 
things that we didn't have 15 or 20 years ago, but we have been 
working very hard to put those things together. Is that----
    Mr. D'Antonio. Senator Domenici, the reservoir has been 
there and it was constructed in 1962. There's been contracts 
that the State of New Mexico has entered into with all of these 
communities. They have actually been paying--funding for, I 
think, it's about $36,000 a year to maintain a right to that 
contract water.
    So essentially, all we are waiting for is to build the 
conveyance structure to utilize that water in these Eastern New 
Mexico communities.
    Senator Domenici. Super. That's a lot of money and we got 
to figure out how to do it, right?
    Mr. D'Antonio. Right. Should I continue?
    The Chairman. Yes.
    Mr. D'Antonio. In 1987, the communities of Clovis, 
Tucumcari, Portales, San Jon, Logan, Texico, Melrose, Elida, 
and Grady and the counties of Curry, Roosevelt and Quay entered 
into a Joint Powers Agreement forming the Ute Water Commission.
    In 1997, the ISC entered into a contract with the Ute Water 
Commission to sell 24,000-acre feet per year of water from Ute 
Reservoir to the Ute Water Commission's member communities. 
Since that time, the Ute Water Commission has paid an option 
payment of $36,000 per year to the ISC to preserve its 
contractual allocation of water. That agreement can be extended 
if necessary to accommodate the pipeline construction schedule 
required by the Ute Pipeline Project.
    In 2001, Eastern New Mexico Rural Water Authority was 
formed through a Joint Powers Agreement among the communities 
of Clovis, Portales, Texico, Melrose, Elida and Grady and the 
counties of Curry and Roosevelt. The Authority will provide a 
mechanism for Eastern New Mexico communities to be able to 
utilize water from the Ute Reservoir for a drinking water 
supply through the pipeline project.
    Ute Reservoir for eastern New Mexico communities is 
critical. Most of Eastern New Mexico now relies on non-
renewable groundwater from the Entrada and the Southern High 
Plains Ogallala aquifers. Consistent groundwater pumping in the 
area has caused water levels to climb that exceeded 100 and the 
current pumping rates of the aquifer near Clovis and Portales 
will not be able to sustain the existing demand for--certainly 
for more than 40 years. We are actually looking at something 
closer to 20 years as a critical juncture.
    The water quality in both aquifers is also deteriorating. 
The rapid depletion and deterioration of these aquifers places 
the economic liability of Eastern New Mexico communities at 
risk.
    In my capacity as State Engineer, I have been asked about 
the availability of water for economic development projects in 
Eastern New Mexico. On recent occasions, companies have been 
unwilling to locate in the area because of a lack of 
sustainable water supply. Ute Reservoir provides the only 
reliable source of renewable water in the region and the 
pipeline project is necessary to enable communities to utilize 
that water resource.
    Much deeper, brackish aquifers have been considered. They 
have been rejected as potential future water supply sources. 
There's been a study in 2005 that determined that brackish 
water in the project area are up to 1,000 feet deep with very 
low groundwater yields and the conclusion was it is an 
unreliable non-cost effective source of water.
    In 2003, the Authority prepared a conceptual design report 
of the pipeline project, but in December 2003, the ISC obtained 
an independent peer review of that report. In 2003, the ISC 
also completed a sedimentation study of the reservoir 
indicating that the future capacity of the reservoir will allow 
the pipeline project to be viable for at least 80 years.
    In December 2006, the Authority completed a preliminary 
engineering report for the project and the ISC and the Bureau 
of Reclamation reviewed the report and concurred that the 
pipeline project has the most economic, environmentally benign 
and technologically reasonable solution to Eastern New Mexico's 
water supply problems. Since 2006, the ISC staff has been 
working with the Bureau and the Authority to continue progress 
on the project.
    In addition, in 2004, ISC staff completed preliminary 
ecological surveys in anticipation of an environmental impact 
statement. These studies revealed no major environmental 
concerns.
    In 2006, the ISC joined the State of Texas in a habitat 
conservation plan for the Arkansas River Shiner downstream of 
the dam. This plan has allowed the U.S. Fish and Wildlife 
Service to exclude certain areas of land from designation of 
critical habitat for the fish in the two States.
    The issues remaining to be completed include completion of 
the project design document at 30 percent completion level and 
completion of the necessary environmental studies required 
under NEPA. The Authority has contractors currently assessing 
the NEPA requirements, and the Authority and the ISC have 
requested to be joint lead agencies with the Bureau of 
Reclamation for any NEPA compliance work.
    Funding this project is very important. Since 2002, the 
State of New Mexico has provided funding to the Ute Pipeline 
Project in the amount of seven-and-a-half million dollars, and 
concurrent with Federal expenditures, New Mexico will support 
additional State and other non-Federal funding sources to 
ensure that the project can be completed in a timely manner.
    Mr. Chairman, Ranking Member Domenici, the State of New 
Mexico, the Office of the State Engineer and the Interstate 
Stream Commission support the development of the Eastern New 
Mexico Rural Water System and request that you fully support 
and fund this worthy project to help us meet the present and 
future water needs of the citizens of Eastern New Mexico, and 
again, I appreciate the opportunity to make this report.
    [The prepared statement of Mr. D'Antonio follows:]

 Prepared Statement of John D'Antonio, Jr., New Mexico State Engineer, 
  and Secretary, New Mexico Interstate Stream Commission, Santa Fe, NM

    Chairman Bingaman and Ranking Member Domenici, I am pleased to 
offer testimony today regarding the Eastern New Mexico Rural Water 
System. I am the New Mexico State Engineer and the Secretary of the New 
Mexico Interstate Stream Commission. Ute Reservoir is a valuable asset 
of the State of New Mexico and the Eastern New Mexico Rural Water 
System is an important water supply project for eastern New Mexico 
communities. The State of New Mexico supports the Eastern New Mexico 
Rural Water System project and has invested funding and staff support 
toward the planning for this project for several years.
    Anticipating the potential water needs in eastern New Mexico and in 
the interest of maximizing New Mexico's use of water from the Canadian 
River stream system, the New Mexico Interstate Stream Commission 
completed construction of Ute Dam and Reservoir in 1962 at a present 
day cost of over $125 million. The reservoir was constructed for the 
specific purpose of providing a sustainable drinking water supply to 
the people of eastern New Mexico. The Interstate Stream Commission owns 
and operates the dam and reservoir for the benefit of New Mexico. 
Pursuant to the Canadian River Compact and subject to the requirements 
of the Stipulated Judgment and Decree entered by the U.S. Supreme Court 
in Oklahoma v. New Mexico, 501 U.S. 126 (1993), New Mexico is allowed 
to store up to 200,000 acre feet of water for use in New Mexico from 
the Canadian River system below Conchas dam. Ute Reservoir stores 
approximately 200,000 acre-feet of water pursuant to a permit issued by 
the State Engineer in 1962. New Mexico is committed to maintaining the 
safety of Ute Dam and beneficially utilizing the waters within Ute 
Reservoir.
    In 1987, the communities of Clovis, Tucumcari, Portales, San Jon, 
Logan, Texico, Melrose, Elida and Grady and the Counties of Curry, 
Roosevelt and Quay, entered into a Joint Powers Agreement forming the 
Ute Water Commission. In 1997, the Interstate Stream Commission entered 
into a contract with the Ute Water Commission to sell 24,000 acre-feet 
per year of water from Ute Reservoir to the Ute Water Commission's 
member communities. Since that time, the Ute Water Commission has paid 
an option payment of $36,000 per year to the Interstate Stream 
Commission to preserve its contractual allocation of water. That 
agreement can be extended if necessary to accommodate the pipeline 
construction schedule required by the Eastern New Mexico Rural Water 
System project.
    In 2001 the Eastern New Mexico Rural Water Authority, (the 
Authority) was formed through a Joint Powers Agreement among the 
communities of Clovis, Portales, Texico, Melrose, Elida and Grady and 
the Counties of Curry, Roosevelt and Quay. The Authority will provide a 
mechanism for eastern New Mexico communities to be able to utilize 
water from Ute Reservoir for a drinking water supply by managing the 
pumping, storage, and delivery of Ute water through the Eastern New 
Mexico Rural Water System pipeline project.
    The development and conveyance of Ute Reservoir water to eastern 
New Mexico communities is critical. Most of eastern New Mexico now 
relies on non-renewable ground water from the Entrada and Southern High 
Plains/Ogallala aquifers. Consistent groundwater pumping in the area 
has caused water level declines that have exceeded 100 feet. At current 
pumping rates, a recent study by CH2M Hill indicates the remaining 
saturated thickness of the aquifer near Clovis and Portales will not be 
able sustain the existing demand for more than 40 years. The water 
quality in both aquifers is also deteriorating.
    The rapid depletion and deterioration of these aquifers places the 
economic viability of eastern New Mexico communities at risk. In my 
capacity as State Engineer, I have been asked about the availability of 
water rights for economic development projects in eastern New Mexico. 
On recent occasions, companies have been unwilling to locate in the 
area because of a lack of a sustainable water supply. Ute Reservoir 
provides the only reliable source of renewable water in the region, and 
the pipeline project is necessary to enable communities to utilize that 
water resource.
    Much deeper, brackish aquifers have been considered--and rejected--
as potential, future water supply sources. A study by the engineering 
firm, CH2M Hill, in 2005, determined that the brackish water aquifers 
in the project area are up to 1000 feet deep with low ground water 
yields. The conclusion of this investigation was that reliable, cost-
effective treatment and development of these saline aquifers is decades 
away and, in any event, would not provide a renewable water supply.
    In 2003, the Authority prepared a Conceptual Design Report of the 
pipeline project, and in December 2003, the ISC obtained an independent 
peer review of that report. In 2003, the ISC also completed a 
sedimentation study of the reservoir indicating that the future 
capacity of the reservoir will allow the pipeline project to be viable 
for at least eighty years. In December 2006, the Authority completed a 
Preliminary Engineering Report for the project. The Interstate Stream 
Commission and the Bureau of Reclamation reviewed the Preliminary 
Engineering Report and concurred that the pipeline project was the most 
economic, environmentally benign, and technologically reasonable 
solution to eastern New Mexico's water supply problems. Since 2006, the 
Interstate Stream Commission staff has been working with the Bureau of 
Reclamation and the Authority to continue progress on the project. For 
example, the Authority has contracted with CH2M Hill to prepare 
additional design documents to support the project.
    In addition to work relating to evaluation of the engineering 
aspects of the project, during 2004, Interstate Stream Commission staff 
completed preliminary ecological surveys in anticipation of an 
Environmental Impact Statement. These studies revealed no major 
environmental concerns. In 2006, the Interstate Stream Commission 
joined with the State of Texas in a habitat conservation plan for the 
Arkansas River Shiner downstream of the dam. This plan will provide 
benefits to the Arkansas River Shiner and has allowed the US Fish and 
Wildlife Service to exclude certain areas of land from a designation of 
critical habitat for the fish in the two states.
    The issues remaining to be completed include completion of the 
project design documents at the 30% completion level and completion of 
the necessary environmental studies required under NEPA. The work 
remaining will build off of existing work in progress. For example, the 
Authority has contractors currently assessing the NEPA requirements and 
the Authority and the Interstate Stream Commission have requested to be 
Joint Lead Agencies with the Bureau of Reclamation for any NEPA 
compliance work.
    Funding this project is very important. Since 2002, the State of 
New Mexico has provided funding to the Eastern New Mexico Rural Water 
System project in the amount of $7,524,400. Concurrent with federal 
expenditures, New Mexico will support additional state and other non-
federal funding sources to ensure that the project can be completed in 
a timely manner. Completion of this project will provide the eastern 
New Mexico communities in Curry and Roosevelt counties a reliable and 
renewable source of water to support economic development and current 
and future needs.
    Mr. Chairman and Ranking Member Domenici, the State of New Mexico, 
the Office of the State Engineer, and the Interstate Stream Commission 
support the development of the Eastern New Mexico Rural Water System 
and request that you fully support and fund this worthy project to help 
us meet the present and future water needs of the citizens of eastern 
New Mexico. I appreciate the opportunity to address the Committee on 
this important water project.

    The Chairman. Thank you very much for your statement. We 
appreciate it, and we will have some questions here after we 
hear from Mr. Bostwick. Darrel Bostwick is the Chair of the Ute 
Water Commission. We very much appreciate him being here. He's 
been involved in promoting this project for a great many years, 
and we look forward to hearing your point of view on it, so go 
right ahead.

 STATEMENT OF DARREL BOSTWICK, CHAIRMAN, UTE WATER COMMISSION, 
                          MELROSE, NM

    Mr. Bostwick. Mr. Chairman and members of the committee, my 
name is Darrel Bostwick, and I currently serve as Chairman of 
the Ute Water Commission, a Joint Powers Agreement entity 
involving local government in Quay, Curry, and Roosevelt 
County.
    As a former County Commissioner in Curry County and 
Councilman for Melrose, my involvement in development of 
Eastern New Mexico Rural Water Supply Project dates back to 
1964 when 17 communities formed an association to study the 
feasibility of utilizing water impounded in the Ute Reservoir 
near Logan to support--to supplement the dwindling groundwater 
resource of Eastern New Mexico.
    Funding for the development of the Ute Reservoir was 
authorized by the New Mexico State Legislature in 1959. 
Construction was completed in 1963. It was built with the 
express purpose of providing a sustainable water supply for 
Eastern New Mexico.
    A related purpose was to capture and store approximately 
200,000-acre feet of conservation storage authorized in the 
Canadian River compact which was approved in 1950 by agreement 
of the States of Texas, Oklahoma, and New Mexico. Compact 
provision were approved by Congress in 1952.
    My testimony today will outline the efforts made over the 
past four decades to plan a sustainable water supply for the 
communities of Curry and Roosevelt County, which are dependent 
on the Ogallala aquifer as their only source of drinking water. 
Studies show and history provides that the Ogallala is a finite 
water resource, which isn't sustainable and will eventually be 
unsuitable for--to sustain the economic base in the region.
    So the proposed project being discussed today isn't new. It 
was part of the overall plan devised by the New Mexico 
Legislature and State Water Engineer, Steve Reynolds, to 
address the future needs of our area--of our area. Now almost 
50 years later, the future has arrived and we need your support 
to bring this project to reality.
    The original plan envisioned a 286-mile pipeline delivering 
water to communities as far south as Jal. Since that time, 
literally dozens of feasibility studies, engineering reports, 
environmental assessments, and financial proposals have been 
completed. Many of the original communities interested in the 
project have dropped out of the Association due to the 
perceived high cost of the project and the belief of some that 
the aquifer would always supply the water needed for municipal 
and industrial purposes.
    I am honored to be here today representing the counties and 
communities who have been vigilant in pursuing this project 
because I was among the elected officials who embarked on this 
journey back in 1964 and have been actively involved over all 
these years in some capacity or another. The hearing today will 
provide a good historical role for you of the many milestones 
completed over the years since I have been involved since the 
beginning.
    I get to cover the early history of the project. Here are 
some of the milestones that have passed over--since that time: 
Formation of the Eastern New Mexico Inner Community Water 
Association in 1963, completion of the first engineer report on 
that project in 1964, initial development plans completed by 
the Bureau of Reclamation in 1966. BOR completed its first 
major study in 1972 and the drafted environmental impact 
statement was completed in 1974. A congressional hearing, field 
hearing, was held in Tucumcari in 1975 and was chaired by then 
Congressman Manuel Lujan.
    The State Environmental Department and the Federal 
Environmental Protection Agency--excuse me--both recommended 
that a water treatment facility be added to the proposed 
project. In 1975, Hobbs and other communities south of 
Roosevelt County opted out of the project. 1975, 1978, and 
1981, the New Mexico legislature authorized the sale of bonds 
to raise the spillway at Ute Reservoir by 18 feet, which 
significantly increased the storage capacity of the reservoir 
and doubled the surface area of the lake. The BOR completed the 
spillway project in 1984.
    Beginning in 1982, Tucumcari began reserving water from Ute 
Reservoir to meet future water needs. A similar reservation 
agreement was initiated by Clovis in 1984 reserving the 
remaining estimated yield on behalf of other communities in 
Quay, Roosevelt, and Curry Counties.
    In 1996, the Ute Reservoir Commission was formed. Its 
stated purpose was to protect and utilize future and existing 
water rights and water resources to plan and develop, for 
equitable distribution, water from Ute Reservoir and to provide 
a mechanism to plan, develop, and acquire financing, protect 
and conserve water--Ute water resources for the common benefit 
of all parties.
    In 1986, the State Water Engineer requested technical 
assistance from the Bureau of Reclamation to study the 
feasibility of an interactive project serving communities of 
Curry, Quay and Roosevelt Counties. The BOR design report was 
completed in 1989 and was followed by a special environmental 
report for the project in 1993.
    The 1996 Interstate Stream Commission reservation and 
purchase contract with the Ute Water Commission was amended and 
extended to include the increased annual yield of 24,000-acre 
feet per year. In 1998, Smith Engineering was selected to 
prepare a conceptual design for the project and provide 
adequate information for the local sponsors to pursue financing 
for final design and construction to the main project to change 
the--the name of the project was changed to Eastern New Mexico 
Rural Water Supply Project, and the latest push for the project 
was launched.
    Mr. Chairman, I realize that my time has expired and I want 
to give others the opportunity which they have already had, but 
I want to thank Mayor Lansford, Mayor Ortega, the State 
Engineer's Office, the Water Trust Board and especially the 
Governor of New Mexico that has supported this project for many 
years.
    Let me conclude my remarks this morning with the following 
observation: After dozens of studies and reports, I believe 
this project is clearly needed. It is straightforward from the 
design, construction, and operation standpoint that has no 
legal impediments, no environmental issues that haven't been 
addressed, and is ready to receive authorization and funding so 
that construction of the facility can proceed. Thank you again 
for the--allowing me to participate in this hearing today, and 
I'll be available for questions.
    [The prepared statement of Mr. Bostwick follows:]

Prepared Statement of Darrel Bostwick, Chairman, Ute Water Commission, 
                              Melrose, NM

    Mr. Chairman and members of the committee, my name is Darrel 
Bostwick and I currently serve as chairman of the Ute Water Commission, 
a joint powers agreement entity involving local governments in Quay, 
Curry and Roosevelt County.
    As a former county commissioner in Curry County and a councilman 
from Melrose, my involvement in the development of the Eastern New 
Mexico Rural Water Supply project dates back to 1964 when 17 
communities formed an association to study the feasibility of utilizing 
water impounded in Ute Reservoir near Logan to supplement the dwindling 
groundwater reserves in Eastern New Mexico.
    Funding for the development of Ute Reservoir was authorized by the 
New Mexico Legislature in 1959 and construction was completed in 1963. 
It was built with the express purpose of providing a sustainable water 
supply for communities in Eastern New Mexico.
    A related purpose was to capture and store approximately 200,000 
acre-feet of conservation storage authorized in the Canadian River 
Compact which was approved in 1950 by agreement of the states of Texas, 
Oklahoma and New Mexico. The compact provisions were approved by 
Congress in 1952.
    My testimony today will outline the efforts made over the past four 
decades to plan a sustainable water supply for the communities in Curry 
and Roosevelt Counties which are dependent on the Ogallala Aquifer as 
their only source of drinking water. Studies show, and history proves, 
that the Ogallala is a finite water resource which isn't sustainable 
and will eventually be unsuitable for sustaining the economic base in 
the region.
    So the proposed project being discussed today isn't new. It was 
part of the overall plan devised by the New Mexico Legislature and 
State Water Engineer Steve Reynolds to address the future needs of our 
area. Now, almost 50 years later, the future has arrived and we need 
your support to bring this project to fruition.
    The original plan envisioned a 286-mile pipeline delivering raw 
water to communities as far south as Jal. Since that time, literally 
dozens of feasibility studies, engineering reports, environment 
assessments and financing proposals have been completed.
    Many of the original communities interested in the project have 
dropped out of the association due to the perceived high cost of the 
project and the belief by some that the aquifer would always supply the 
water needed for municipal and industrial purposes.
    I'm honored to be here today representing the counties and 
communities who have been vigilant in pursuing this project because I 
was among the elected officials who embarked on this journey back in 
1964 and have been actively involved over all these years in one 
capacity or another. The hearing today will provide a good historical 
overview of the many milestones accomplished over the years. Since I 
have been involved since the beginning, I get to cover the early 
history of the project. Here are some of the early milestones:

  <bullet> Formation of the Eastern New Mexico Inter-Community Water 
        Association in 1963.
  <bullet> Completion of the first engineering report on the project in 
        1964.
  <bullet> Initial development plans completed by the Bureau of 
        Reclamation (BOR) in 1966.
  <bullet> The BOR completed its first major study in 1972 and a draft 
        environmental impact statement was completed in 1974.
  <bullet> A Congressional field hearing was held in Tucumcari in 1975 
        and was chaired by then Congressman Manuel Lujan. The State 
        Environment Department and the federal Environmental Protection 
        Agency both recommended that a water treatment facility be 
        added to the proposed project design.
  <bullet> In 1975, Hobbs and other communities south of Roosevelt 
        County opted out of the project.
  <bullet> In 1975, 1978 and 1981 the New Mexico Legislature authorized 
        the sale of bonds to raise the spillway at Ute Reservoir by 18 
        feet which significantly increased the storage capacity of the 
        reservoir and doubled the surface area of the lake. The BOR 
        completed the spillway project in 1984.
  <bullet> Beginning in 1982, Tucumcari began reserving water from Ute 
        Reservoir to meet future water needs. A similar reservation 
        agreement was initiated by Clovis in 1984 reserving the 
        remaining estimated yield on behalf of other communities in 
        Quay, Roosevelt and Curry Counties.
  <bullet> In 1986, the Ute Reservoir Water Commission was formed. It 
        stated purpose was to: ``protect and utilize future and 
        existing water rights and water resources; to plan and develop 
        for equitable distribution of water from Ute Reservoir and to 
        provide a mechanism to plan, develop, acquire, finance, protect 
        and conserve Ute water resources to the common benefit of all 
        parties.''
  <bullet> In 1986, the State Water Engineer requested technical 
        assistance from the Bureau of Reclamation to study the 
        feasibility of an ``entruncated'' project serving communities 
        in Curry, Quay and Roosevelt Counties.
  <bullet> The BOR Design Report was completed in 1989 and was followed 
        by a special environment report for the project in 1993.
  <bullet> In 1996 the Interstate Stream Commission reservation and 
        purchase contract with the Ute Water Commission was amended and 
        expanded to include the increased annual yield of 24,000 acre 
        feet per year.
  <bullet> In 1998, Smith Engineering was selected to prepare a 
        conceptual design for the project and provide adequate 
        information for the local sponsors to pursue financing for 
        final design and construction. The name of the project was 
        changed to the Eastern New Mexico Rural Water Supply project 
        and the latest push for the project was launched.

    Mr. Chairman, I realize that my time has expired and I want to give 
others on the panel an opportunity to continue the story of this 
important project. Mayor Lansford and Mayor Ortega have been great 
leaders of this effort over the past five years and we also appreciate 
the support of the New Mexico Legislature, the New Mexico Water Trust 
Fund Board and our current State Water Engineer, John D'Antonio.
    Let me conclude my remarks this morning with the following 
observations: After decades of effort and dozens of studies and 
reports, I believe that this project is clearly needed. It is 
straightforward from a design, construction and operations standpoint; 
it has no legal impediments; no environmental issues that haven't been 
addressed; and is ready to receive authorization and funding so that 
construction of facilities can proceed.
    Thank you again for allowing me to participate in the hearing today 
and I'll be available to respond to questions from the committee.

    The Chairman. Thank you very much for your testimony. Thank 
you all for your excellent testimony. Let me ask a few 
questions. I am sure Senator Domenici will have some questions 
as well.
    Let me start with Mayor Lansford and Mayor Ortega. Maybe 
either one of them or both would want to comment on this. One 
of the arguments that I hear from people is that this is a very 
expensive project. There's a better solution readily available, 
and that solution is for the cities, particularly Clovis and 
Portales, to just buy up the existing water rights that are 
currently being devoted to agriculture, and that will solve the 
problem, and we don't need to be building pipelines. What is 
your response to that? Is that an adequate response going 
forward? What is your thinking on that, Mayor Lansford or Mayor 
Ortega?
    Mr. Lansford. Thank you, Senator Domenici, Senator 
Bingaman, Chairman. You know, that has been discussed for a 
number of years and it does seem to make a little bit of sense. 
However, there is an enormous cost attached to that process. 
Buying up all the groundwater, of course, will accomplish a 
short-term solution. It will also diminish the economic benefit 
of agriculture in the area, but it still has a finite amount of 
water in the aquifer even if you began buying up, you know, 
reserves that are available through the agricultural uses right 
now.
    So I think that is do-able. It is very expensive, and I 
think our studies indicate that it is actually more expensive 
than a pipeline project from Ute Reservoir, and it would still 
end in the same result. There would be a need for renewable 
supply at some point in time.
    The Chairman. Did you have a thought on it, Mayor Ortega?
    Mr. Ortega. Mr. Chairman, Senator Domenici, I can just 
express what Portales has been doing for some time. We have two 
water well fields, one called the Sandhill and the other Black 
Water, which is our main well field.
    We, the city of Portales, owns 6,000 acres of land and 
water rights and controls another 6,000 acres of State lease 
land, and through that effort, we have expended a large number 
of dollars in trying to stay ahead of the game, buying water 
rights, and drilling wells, and building pipeline. It is a very 
expensive effort, but we continue to do that, you know, daily. 
Every day, we are working to expand our well field and to meet 
the demand. We are looking today at buying more land and water 
rights to stay ahead of the game.
    Senator Domenici. Ahead of what game?
    Mr. Ortega. Ahead of the game of trying to not run out of 
water and supply the demand to our community.
    The Chairman. Let me just ask again, either of the Mayors, 
if they would want to comment. You heard testimony and have 
seen the written testimony of the Bureau of Reclamation. Do you 
agree with the Reclamation's assessment that substantially more 
work is needed before they would have the information necessary 
to proceed and support construction of this, authorization of 
construction of this project?
    Mr. Lansford. Senator Bingaman and Senator Domenici, I 
don't agree with the Bureau's position, and I think one of the 
questions that was asked was how many rural water projects 
exist right now that the Bureau is overseeing. I think there's 
10. Have each one of those projects had to follow the strict 
criteria that we are being asked to follow? I think the answer 
is ``No''. I think those projects have all been authorized with 
a design much less than the 30 percent that's being asked of 
us.
    Certainly, the project needs to be designed to a 30-percent 
level in order to get it built, but for it to have to get to 
that full 30-percent to get Federal authorization has not been 
a practice that's been required in the past.
    The Chairman. Mayor Ortega, did you care to----
    Mr. Ortega. Mr. Chairman, Senator Domenici, I think there 
is a lot of frustration from the communities involved with this 
project that we have continued to study this thing to death and 
have done design after design. As you heard the history of the 
project, my concern is that we go to the Bureau of Reclamation 
and they ask for 10 percent design, and we go back and they ask 
for 30 percent. What is next? Forty percent? Then 50 percent?
    As we do those things to meet their satisfaction, the price 
of the project continues to escalate, and at some point, it is 
going to reach a point that it just cannot be afforded. The 
time is now. I think that we are doing everything that we can 
to meet the requests from the Bureau of Reclamation, and I 
think we have done a real good job of that.
    The Chairman. Let me also ask the two Mayors one other 
question. There are two costs involved in these projects. 
There's the cost of construction, and then there's the cost of 
operations and maintenance, ongoing costs.
    The way that this has been talked about and designed in the 
legislation I earlier proposed, we are talking about the 
Federal Government assuming responsibility for 75 percent of 
the construction cost, the rest being borne by the State and 
local communities, and then all of the operations and 
maintenance cost being borne by the local communities that are 
getting the water from that time on. At least that's my 
understanding. I'd just ask if you think that the communities, 
particularly the ones that you lead are prepared to meet their 
part of that cost, both their part of that construction cost. 
But also, once this thing is built, if it costs as much as it 
is anticipated to cost, and there will be a lot of operations 
and maintenance involved in keeping it operating, are the rate 
payers of the communities able to cover those costs?
    Mr. Lansford. Thank you, Senator Bingaman, Senator 
Domenici. In response to that question, I think the answer is 
``Yes.'' Our community is prepared to pay its portion, the 10 
percent that we are requesting. That doesn't seem like a lot in 
comparison to the State and the Federal Government portion, but 
the O&M expense for this project that will be ongoing will 
certainly be our responsibility. That is, believe it or not, 
the biggest expense associated with the monthly bill that each 
consumer will see and pay for.
    So I do believe there's a commitment specifically with 
regard to the city of Clovis. We have committed a 
infrastructure gross receipts tax portion to address the 
capital portion of this project to the fullest extent that we 
can presently, but I do believe there's strong commitment from 
the elected officials within the city of Clovis that this 
project is a No. 1 priority, and whatever is required will be 
done by the city of Clovis.
    Mr. Ortega. Mr. Chairman, Senator Domenici, Portales has 
for a few years back implemented a water rate increase, a small 
one, that has allowed us to slowly bring the price of our water 
up a little bit at a time so we can be prepared for this. We 
have also done an ability-to-pay study through the process 
here, and we have demonstrated that, yes, our communities are 
able to--to be--are able to afford this project, not only in 
paying the amount of water, but also paying for their portion 
of the construction costs.
    The Chairman. All right. Thank you very much. Let me defer 
to Senator Domenici for questions, and then I'll come back with 
some questions for the other witnesses. Go ahead.
    Senator Domenici. You want to finish?
    The Chairman. It doesn't matter. You want me to? You go 
ahead.
    Senator Domenici. You need to rest.
    The Chairman. I do.
    Senator Domenici. I don't know which is more restful, 
talking or shutting up.
    The Chairman. Shutting up is more restful.
    Senator Domenici. Let me tell you where I am today, Mayors, 
and all the others back there that represent people and those 
who represent the Governor. I think it is imperative that we 
join hands soon and that we decide what percentage of this 
project will work, and that we give you the Federal 
Government's commitment at that level, and that we proceed with 
this--all dispatch to develop this project.
    I don't think we ought to be waiting around any longer. 
Now, let me ask because it would appear to me that that's easy 
for the Mayors. The Water Engineer, he's done a terrific job 
the years he's been in. No doubt about it. Do you think, like I 
do, that we should proceed or are we unable to make ends meet 
on this project as it has been described to us over and over, 
and they have been asking us to get on with it over and over, 
and you told us it is ready to go. Tell us now succinctly, 
where are we?
    Mr. .D'Antonio. Mr. Chairman and Senator Domenici, it is 
imperative that this project gets built. I mean, you know, we 
are at the mercy and will be at the mercy of Federal 
appropriations as time goes on, and certainly, the 
authorization needs to be there. Then we'd have to fight the 
battle of whether or not the appropriations are there to build 
this project.
    But in the absence of that, you are looking at--you know, 
the eastern part of the State of New Mexico and all the people 
that live there, and to say that, you know, this project is not 
going to happen would really--and could, you know, make these 
into ghost town communities. Certainly, the economic viability 
wouldn't be there. Look how important Cannon Air Force Base 
facility is to this community, and just think of how important 
the water supply is.
    You know, I mentioned in my testimony a big employer that 
was going to come in and spend a couple of hundred million 
dollars in this community and all they wanted was a 40-year 
guarantee of a water supply, and because the Ute Pipeline 
Project had not--you know, they knew it was in the works, but 
the fact that it still needed to go through the authorization 
phase, they weren't willing to invest the money into this 
community, and it was between us and only one other community, 
and I think Clovis had the upper hand on getting them to move 
here. They decided not to move. It would have been hundreds of 
jobs for this community, millions of dollars.
    That's just one example of where it would have been nice to 
say we have got this federally authorized project. It is in 
the--you know, it is in the planning, or now it is going to be 
in the design and construction phase, and those employers, the 
people that you need to--you know, that need to keep coming in 
for these communities to be viable aren't going to look at 
Clovis and Portales if they don't have a water supply.
    Senator Domenici. Mr. Bostwick, have we waited too long? Is 
it too late now?
    Mr. Bostwick. I don't think it is too late, Senator. I 
think it's getting to the point to where it is imperative that 
we move rather quickly, but I don't think it is too late.
    Senator Domenici. Think the people will support it even at 
these new commitment levels?
    Mr. Bostwick. Yes, sir, Senator Domenici. They will support 
it at these levels. The fact that--when water is no more, then 
there is no project.
    Senator Domenici. That's right. When the price is no more, 
then there is no more of anything.
    Mr. Bostwick. That's right.
    Senator Domenici. You don't worry about price. You got to 
get on, pack up your pickup and get out, right?
    Mr. Bostwick. Absolutely.
    Senator Domenici. So it is pretty big stuff. You are an old 
pro. I don't know your political background. I would assume 
that for you to have this job for so long, that you know what 
you are doing and you probably represent people in a way that's 
pretty honest. You know, I am just going to make that 
assessment. You know, why would you be around if you weren't?
    Do we have the right people in place? Just tell us that. 
You don't have to be personal, but are we OK? Can the people 
sustain this that are in leadership positions? Can they get it 
done?
    Mr. Bostwick. Senator Domenici, yes. I am real enthused 
with the leadership that we have now in the Water Authority, 
and, yes, we have the leadership and the ability to get this 
done.
    Senator Domenici. State legislators are here. Some of them 
I have known for a long time. I notice one just was about to 
leave. Better sit down now. They all seem to be interested. Are 
they on board as you understand it? Are they ready to go?
    Mr. Bostwick. Yes, sir, Senator Domenici. There is a book 
of letters of support somewhere in this room----
    Senator Domenici. Yes.
    Mr. Bostwick [continuing]. That you will probably see.
    Senator Domenici. Yes. I saw it.
    Mr. Bostwick. As I understand it, all of the Senators and 
legislators----
    Senator Domenici. Everyone there.
    Mr. Bostwick [continuing]. In this area are on board in 
support of this project.
    Senator Domenici. Senator Bingaman, I know we have to 
follow the rules, and that's your job, and you can't let us get 
ahead of the rules or then things will fall apart. But I guess 
that we have a big piece of the State pretty dependent upon 
this project, or if we are not willing to go with it, we got to 
find something else or we got people that aren't going to have 
what is needed to have life here for the next 40 plus years. 
Seems to me that we have had enough hearings, but you are in 
the majority now, and this is not one of these issues that we 
ought to let the committee split over. You and I ought to carry 
the whole team with us.
    I just want to say to you I am ready. Let's go. I don't 
know how we go next. I have seen a schedule. I am ready to do 
it, and I don't want to cut it short. If we need more hearings, 
we got to have them.
    But from my standpoint, I am just going to look out there 
and tell you honestly so you will all know, we had a witness 
here, testified for about 30 minutes, from the Federal 
Government representing the Bureau of Reclamation. It is good 
we have these. I don't have to worry about a cord. I was going 
to say I don't have a great deal of confidence in the Bureau of 
Reclamation. I don't have it now. I didn't have it last week. I 
didn't have it a year ago, and they know it. They know that I 
don't, and yet, we have got to get this thing done, and we've 
got to use them. We can't substitute our own. We don't just 
invent things around here like these foreign countries. They 
say, ``Well, hell, we'll just make a new one.'' We've got to be 
legal with what the law provides, right? Can't have a war.
    But I think we got to get them to moving, too. Some of the 
numbers they told you today are outrageous. It takes them that 
long to get this done? I mean, what are they doing? Two or 3 
years for some kind of wrap-up that they have to do. I can't 
understand.
    Don't you think that they are dillydallying, Mayor? Ask the 
two of you sitting here. Just be honest. What do you think, 
Mayor Ortega?
    Mr. Ortega. Senator Domenici, Senator Bingaman, I agree 
with you. I think they are dillydallying. I think we need to 
move forward with this project and get it taken care of.
    Senator Domenici. What do you think, Mayor?
    Mr. Lansford. Senator Bingaman and Senator Domenici, you 
know, we have behaved in a fashion which I believe is very 
mature over the years as we have worked with the Bureau of 
Reclamation. We have done everything we know how to do to 
address their questions and concerns. Had numerous meetings 
with them trying to give the appropriate response. Although I 
am as frustrated as many others, they have been professional in 
their position.
    They have been, you know, steady, predictable and unwilling 
to come out and say, ``We need to fund this project.'' But at 
the same time, I think there is a degree of responsibility that 
they have to the Administration and to the public in general to 
make sure that tax dollars are not wasted. I don't feel like 
that this project represents any waste in tax dollars. This is 
a huge project that's an investment that the Federal 
Government, State government, and local government, and the 
people within those jurisdictions will receive benefits for 
virtually centuries.
    So I respect the Bureau. I appreciate the Bureau, but in 
this instance, I think it is time to move forward.
    Senator Domenici. What do you think, Mr.----
    Mr. Bostwick. Senator Domenici, I agree 100 percent with 
what the Mayor said. We worked with them for several years, 
even back through the--before the Water Authority was formed 
through the Ute Water Commission. They have been very 
professional and have had a good relationship with them, but I 
am just like the Mayor. I believe that it's time for us to move 
forward regardless of small regulations that seem to hold us 
up.
    Senator Domenici. Thank you for giving me the latitude 
today.
    The Chairman. No. Go right ahead. Let me ask just a couple 
of final questions of the two witnesses I haven't had a chance 
to ask questions of.
    Let me ask our State Engineer first. You made some 
statements about the dropping of the aquifer, the water level 
in the aquifer. Could you elaborate a little more on how 
extensive or how eminent a problem this is? I mean, are we 
looking at a serious inability to continue with business as 
usual in a decade, in two decades, in 50 years? What can you 
tell us, as our State Engineer, about the prospects for 
continued use of water at the current levels?
    Mr. .D'Antonio Mr. Chairman, it is a problem. We have done 
some recent studies. I alluded to big employer that wanted to 
come out here. We looked at a whole lot of different 
possibilities with the well, the well system that's generating 
water, and every place we looked at, there was a variation of 
perhaps, you know, less than 10 years of well life associated 
with some locations up to maybe 30 to 40 years, but in the 
conglomerate, if you take them all together and you have a 
growing community that's reliant on this well system, the well 
field continues to have to--you have to dig more wells. You 
have to go out further and further, and you have to kind of 
pump from one area, and it is really--it is almost like a--you 
know, a shell game as to where the water is actually going to 
come from. You are trying to minimize the impact to the 
aquifer.
    The bottom line: It is going down two to two-and-a-half 
feet a year. The energy costs are going to go up with respect 
to using that groundwater. There's also a deteriorating quality 
the deeper you get. You have potentially more treatment of that 
water. So it is just a losing proposition all the way around.
    What is nice is they could actually use that water in times 
of drought if the Ute supply--and we think there's maybe a 5-
percent chance of shortages in 7 years. I believe the firm 
yield of that reservoir is 24,000-acre feet a year and you can 
maintain the levels that you have in the Ute Reservoir.
    So again, if there was a long, prolonged drought, for 
instance, it's similar to what the city of Albert can do. They 
go away from their San Juan channel they're going to bring 
online and they can actually use the existing infrastructure to 
use some groundwater at that time, but preserve it for those 
drought conditions.
    I mentioned last year, we sent 8,000-acre feet of water 
down to Texas. You know, if we had that pipeline in place, we 
essentially could perhaps even do some aquifer storage and 
recovery or store that water in the aquifer. So yeah, the 
condition of this whole area in the west is--or the eastern 
side of the State essentially is just very problematic and it 
is going to continue to worsen as time goes on.
    The Chairman. Am I right? We share the Ogallala aquifer 
with West Texas, and I believe I have seen some indications and 
charts that the--I think the geological survey, perhaps, 
prepared indicating that as pumping continues and accelerates 
in West Texas, that diminishes the water level here in Eastern 
New Mexico. So it is not just the drilling and the pumping that 
is occurring here that is the problem. It is also the pumping 
that's occurring across the border. Am I right about that?
    Mr. D'Antonio. That's correct, Mr. Chairman. If you look 
at--you just fly over the State lines, you can see where Texas 
begins. They have the right of capture and they can drill as 
many wells as they want over the State line and take that water 
essentially at some point out from under New Mexico.
    Right now with the current conditions we have, even though 
there is that effect, because it is a big bathtub--the Ogallala 
extends under seven States, you know, Nebraska, all those other 
States that use it heavily for agricultural purposes--continues 
to go down just like a bathtub level would go down. You just 
have a big bathtub. But right now, the localized pumping is 
more--has more of an impairment effect. In other words, the 
local wells that we use for agriculture and whatnot, the draw-
down effect from taking that water out of those wells has more 
of an effect on New Mexico side than the actual pumping in 
Texas. But suffice it to say that levels generally are going to 
continue to go down because of the groundwater pumping in 
Texas, and we have got no control over, as a State, what they 
do in that regard.
    The Chairman. I asked the Mayors if the local communities 
here were prepared and able to pay the cost that they would 
anticipate involved with this. As I calculated, this project 
would likely cost the State itself about $70 million at a 
minimum. In your view, is the State in a position to assume 
that?
    Mr. D'Antonio. Mr. Chairman, I think we are, and I can't 
make promises for what the Governor and the Legislature do.
    But last year, as part of the Governor's Finance Council, 
we--and I was able to highlight this project as one of the 
highest priorities within the State of New Mexico, and at that 
time out of the Governor's Finance Council, the recommendation 
was $70 million over a 3-year period of time. In other words, 
the State is looking at funding it at a 20, 25 and 25 million 
over three years.
    Last year, what we tried to do was get the 5 million--and I 
was a little bit disappointed at what came out of the State 
last year because we had talked about that $5 million to 
complete that 30-percent level design project, and we wound up 
only getting $1 million out of the State Legislature. We also 
were able, though, to supplement it with some funds out of the 
Water Trust Board, which I am also the Chairman of the Water 
Trust Board. Because we do have another funding cycle, I see no 
problem in catching up without delaying any of that 30-percent 
design level effort that's ongoing right now and to make sure 
that we continue to put forth this is a priority project for 
the entire State of New Mexico.
    We have several legislators in this room, State legislators 
that are behind the Water Trust Fund, the Water Trust Board and 
the projects that we do, and we need their continued support to 
make sure the executive branch and legislate branch are 
together on this is a priority, and I think it is.
    The Chairman. Let me ask you, Darrel, one other question, I 
think, in your reciting of the history that's gone on here. The 
Ute Water Commission, as I understand it, has transitioned into 
the lead agency now. Used to be the Ute Water Commission on 
this project. Now it is the Eastern New Mexico Rural Water 
Authority. As I understand, the contract for the water out of 
Ute Lake is still with the Commission. Has that caused any 
problem? I mean, has this transition of lead agency been 
smooth, and do you see any difficulty in getting the two 
working together to be sure that that works?
    Mr. Bostwick. Mr. Chairman, the transition has been very 
good. The fact is most of the members that represent the 
various communities serve on both boards, so there's no 
conflict whatever. The reason for sustaining the Ute Water 
Commission, the main reason was, Quay and--Quay County and 
Tucumcari and that area are members of the Ute Water 
Commission, and we didn't want the two entities--since they had 
decided not to participate in this program, we didn't want 
their reservations to be in with the Authority. So that was the 
purpose of keeping the two separate, the main purpose.
    The Chairman. OK. That's very helpful. Senator Domenici, do 
you have any additional questions or comments?
    Senator Domenici. Maybe you do, but I don't get involved in 
the State Legislature very much in terms of what they do to 
support issues like this, but I know everywhere that I read 
that this project seems to have legislative support in Santa 
Fe, and I notice that we had Democrats and Republicans in this 
area that are not all Democrats as they would be in some other 
areas.
    Stuart, I see you here, and a Democrat, if there is one, to 
stand up and tell me what you all think about legislatively or 
legislature-wise, is there support for the project if we decide 
to proceed with as much dispatch as we can?
    Mr. Ingle. Senator Domenici, Senator Bingaman, I think that 
there's broad support across party lines. This is not a party 
issue as the Legislature sees it, or anyone here in New Mexico, 
or our side of the aisle, or their side of the aisle. It is 
something we look on as something that we need to take a hard 
look at and try our very best to develop and get going on a 
project like this.
    I think basically we are looking at it as something that 
all of us can participate in and help out with. Every Senator, 
Representative over here, except maybe one, has multiple 
counties, and they are all basically up and down the southeast 
side of the State. At one time or another, we were all involved 
in the Ute Water Project clear down to Jal, clear up to Clovis 
here, and Tucumcari, Logan.
    Senator Harden has Clovis and goes to Raton. Most of his 
district was involved in it, and most all of my district is 
also.
    Senator Domenici. Mr. Harden.
    Mr. Harden. Thank you, Senator, both Senators. I think my 
experience in the past, State Legislature including the 
executive branch of government and certainly the--all the 
communities involved have shown a willingness to expend 
resources, step up to the plate, if you will. We have 
demonstrated that historically. At 30,000 feet, it is my view 
we are kind of now waiting for Federal partners. It is where--
we are really to that point where we need your help and your 
assistance financially.
    But I think historically we have shown that the communities 
are willing to--and the Legislature is. You know, I personally 
sponsored a bill last session that included in that bill $40 
million for this project, and I didn't get through the process. 
You gentlemen know better than anybody how that works. But I 
think we have demonstrated our willingness to put up the money 
and we are really kind of waiting on you folks, Senator. Thank 
you for the opportunity.
    Mr. Domenici. Thank you.
    The Chairman. All right. I think we have both finished with 
our questions. Let me again thank all of the witnesses, and 
thanks to everyone who has come. I think this is a useful 
hearing, and we will go back to D.C. after Labor Day and do our 
best to settle on legislation we can move ahead with. Again, 
thank you all very much. The hearing is adjourned.
    [Whereupon, at 11:44 a.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              


       Responses of David Sabo to Questions From Senator Bingaman

    Question 1. Your testimony notes that in 2004, Reclamation 
identified critical questions needing to be answered regarding 
the Eastern New Mexico Project. These included (1) whether 
design & construction costs were consistent with other 
projects; (2) whether appropriate alternatives were considered; 
and (3) whether the communities had an accurate estimate of the 
overall costs involved. In a recent letter (April 3, 2007) to 
Mayor Lansford, Reclamation noted that the pipeline ``appears 
to be the least costly and most sustainable way to meet 
longterm water needs in the project area'' This appears to 
answer one of the questions. In your view, have the other 
questions been answered? If so, what are your findings?
    Answer. Some of these same questions remain regarding the 
Eastern New Mexico Rural Water Project. In general the 
preliminary construction estimate appears to be in line with 
similar projects. While further comprehensive project costs are 
being developed by the Authority's consultant, CH2M Hill, these 
project costs have not been reviewed by Reclamation and 
therefore we can make no determination regarding project 
feasibility.
    Question 2. In that same March 30, 2007 letter, Reclamation 
indicated that the ENM project is currently at a 10 percent 
design and cost estimate level. You also state that 
historically, Reclamation has required a more detailed 30% 
design to support requests for construction authority. In a 
2004 document establishing the Oversight Committee you 
mentioned, Reclamation indicated that the level of detail in 
the Project's design was ``between an appraisal level study and 
a feasibility level study'', which sounds to me like it was 
already between a 10% and 30% design. Since 2004, the 
Authority, primarily through State funding, has invested at 
least another $2 million in studying and planning the project. 
Your position makes it sound like the Authority is getting 
further away from the 30% design, despite an additional years 
of work. Can you explain this? What is Reclamation's position 
today on the level of design work that's been completed for the 
Project? What needs to be done, and how much time will it take 
to get to the 30% design?
    Answer. Tucumcari and Quay County withdrew from the project 
in 2005. This changed the scope of the project and necessitated 
an extensive revision of the design, engineering, cost 
estimate, and financing plan. As stated in our April 3, 2007 
letter to Mayor Lansford, we agree with CH2M Hill's assessment 
that the project as presented in the December, 2006 Preliminary 
Design Report is at a 10 percent design level. Reclamation has 
recommended that a feasibility report should include a 30 
percent design and a consistent cost estimate. We understand 
that the Eastern New Mexico Rural Water Authority is 
contracting with CH2M Hill to bring the project design up to 
the 30 percent level and that they anticipate this will take 
about 2 years.
    Question 3a. It's my understanding that the Reclamation 
currently has 10 total authorized rural water projects. How 
many of those projects has Reclamation completed constructing?
    Answer. Of the authorized rural water projects, Reclamation 
has completed construction on 3: The Mid Dakota Rural Water 
System and the Fort Peck County Rural Water System were 
completed most recently, and the WEB Rural water project was 
completed in 1991.
    Question 3b. Did any of those projects meet the 30% design-
level before they were authorized?
    Answer. Congress has authorized projects with varying 
design-levels. In many cases projects did not meet the 30% 
standard. In those cases, however, Reclamation did not support 
the authorization of those projects and would not support 
future projects that do not meet this standard.
    Question 4a. In implementing the Rural Water Supply Act, 
you note that Reclamation expects to publish proposed and final 
criteria in the Federal Register next year. With this schedule, 
does BOR expect to request funding for the Rural Water Program 
in its 2009 budget? Will you request funding so that 
Reclamation can continue to work with the Eastern New Mexico 
Rural Water Authority in the plan and design for this project?
    Answer. The 2009 budget is currently being formulated, and 
we cannot predict how individual programs or projects will be 
funded.
    Question 4b. Have you started the rural water needs 
assessment called for in the Act? When do you expect that 
report will be completed?
    Answer. Reclamation has begun the assessment report as 
required by the Act. It will examine the status of all rural 
water supply projects authorized for construction but not 
completed; the current plan for completion of these projects; 
the demand for new rural water supply projects; rural water 
programs under the administration of other agencies and how 
these programs meet the need for rural water supply and water 
treatment programs in the western states; under the 
jurisdiction of the Secretary authorized but not completed 
prior to the date of enactment of this Act, including 
appropriation amounts, the phase of development, total 
anticipated costs, and obstacles to completion; the extent that 
the Rural Water Supply Act will meet the demand; how this 
program will complement existing authorities; and, improvements 
to coordinate and integrate the other programs and authorities. 
The report is scheduled to be completed and provided to 
Congress by December, 2008 as provided in the Act.
    Question 5a. In 2004, the Committee held a hearing on the 
bill I introduced in the 108th Congress to authorize the 
project. In response to one of my questions concerning the lack 
of Reclamation support for the project, Reclamation stated that 
its rural water activities were reviewed by the Office of 
Management & Budget, which concluded that ``stronger controls 
for rural water project development are needed and lack of 
Reclamation involvement during project development increases 
the probability of projects that are not successful according 
to the Federal program assessment measurements.'' Which of the 
authorized rural water projects have not been successful and 
what measurements are used to make that determination? Is this 
simply a justification to reduce federal funding for rural 
water projects?
    Answer. The ultimate goal of any rural water project is to 
deliver water to rural areas. Given the competing budgetary 
demands among rural water projects and within Reclamation's 
overall budget, it is critical that money is spent on feasible 
projects in the most cost effective manner while working toward 
this goal. The scope and complexity of rural water systems 
makes coordination and planning during the development stages 
of these projects even more important to ensure projects 
provide sustainable water supplies at the least cost.
    Question 5b. How will implementation of the Rural Water 
Supply Act enhance the likelihood of the success of projects?
    Answer. The Rural Water Supply Act will allow Reclamation 
to institute criteria that will help stakeholders and Congress 
to prioritize rural water needs and determine whether a project 
is feasible and cost effective before they are authorized and 
constructed.
                                ------                                


     Responses of John D'Antonio to Questions From Senator Bingaman

    Question 1. I give a lot of credit to Governor Richardson 
and the Legislature for aggressively trying to address the 
water supply issues facing communities across New Mexico. Over 
the long-term, though, projects like the Eastern NM pipeline 
are going to require a commitment of millions of dollars by the 
State, as well as local communities. This particular project is 
expected to cost the State almost $70 million at a minimum. 
What's the State's long-term plan to secure the funding 
necessary to implement this and the other projects needed in 
New Mexico?
    Answer. Last year, in a presentation to the Governor's 
Finance Council, the State Engineer Office and others requested 
that funding for the Eastern New Mexico Rural Water Project 
should be provided over 3 years in the amounts of $20 million 
for the first year, $20 million for the second year and $25 
million for the third year. Although this funding initiative 
was not completed last year, our agency will continue to 
request funding to meet the State's cost-share requirements for 
this project and other needed projects within New Mexico.
    Question 2a. Ute Reservoir will provide the water supply 
for this project. Can you provide an update on the status of 
water supply in Ute Reservoir? Are there any issues that need 
to be resolved to ensure that water supply is available for the 
Project? Is it a physically sustainable supply?
    Answer. Ute Reservoir currently holds approximately 94% of 
the 200,000 acre-feet of water New Mexico is entitled to store 
under the Canadian River Compact and the U.S. Supreme Court 
Decree in Oklahoma v. New Mexico. A physically sustainable 
water supply is available for the Northeastern New Mexico Rural 
Water Supply Project from Ute Reservoir. The project is 
designed to deliver approximately 16,000 acre-feet per year 
from Ute Reservoir and consistent modeling results indicate 
that that amount of water is available on a sustainable basis 
from the reservoir. There are no outstanding issues that need 
to be resolved to ensure that a water supply is available for 
the project.
    Question 2b. Given the drawdown that's occurred, do you 
think that the Ogallala and Entrada aquifers are going to be 
able to sustain some level of agricultural uses beyond the 20-
year horizon? How bad is the situation from a water supply 
perspective?
    Answer. As advances in irrigation technology and efficiency 
continue to be developed, it is expected that agricultural uses 
will continue in eastern New Mexico beyond a 20-year horizon. 
As I mentioned in my direct testimony to the Committee, 
consistent groundwater pumping in the area has caused over 100 
feet of water level declines. In addition, at current pumping 
rates, a recent study by CH2M Hill indicates the remaining 
saturated thickness of the aquifer near Clovis and Portales 
will not be able sustain the existing demand for more than 40 
years. Agricultural conservation efforts have been in place in 
eastern New Mexico for at least 40 years and it is anticipated 
that the agricultural community will continue to adapt to 
changing conditions as it has in the past. Although the 
municipal and industrial water users have also initiated 
conservation measures, because they have less flexibility to 
adapt to changing supply conditions, the pipeline project will 
provide them with a reliable water supply.
    Question 3. It's my understanding that the Governor sought 
$5 million in his ``Year of Water'' initiatives for the Project 
to get to a 30% design. Although a substantial amount was 
provided, it's not clear that there is enough funding to get to 
that design level. Do you think that an authorization to 
construct the Project should still move forward, even if a 30% 
design has not yet been completed?
    Answer. Yes. The current project designs, and the completed 
economic and technical studies that have been accepted by the 
Bureau of Reclamation confirm that a pipeline from Ute 
Reservoir is the most economical and sustainable long-term 
water supply alternative available to meet the needs of eastern 
New Mexico communities. In addition, the State of New Mexico 
has invested the present day value of over $125 million in 
constructing, operating and maintaining Ute Reservoir, and over 
the past several years, has spent over $3 million toward the 
project design, in part responding to questions from the Bureau 
of Reclamation regarding the project. Although the Bureau of 
Reclamation has not furnished criteria fully defining what it 
would accept as a 30% design product, current and anticipated 
state funding should enable contractors to finalize a design 
product in the near future that meets the 30% completion 
requirements of all accepted engineering standards.
                                ------                                


     Response of Darrel Bostwick to Question From Senator Bingaman

    Question 1. I appreciate your historical perspective on the 
Project and your leadership over the years. Has the transition 
from the Ute Water Commission to the Eastern New Mexico Rural 
Water Authority, as far as the lead role in developing the 
Project, been a smooth one? Does it affect the water supply for 
the Project since the Ute Water Commission actually has the 
contract for the water? From the standpoint of the smaller 
communities involved in the Project, do you think there is 
ample support to move forward?
    Answer. The transition has been very smooth; all of the 
representatives of the communities are representatives on both 
boards, there is no conflict at all. I see no problem with the 
water being controlled by the Ute Water Commission that cannot 
be resolved with both boards being represented by the same 
people. The small communities have been making preparation for 
this project for several years by adjusting water rates and 
implementing gross recite taxes in preparation for this 
project. I believe the support is here for the project.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              


    [Due to the enormous amount of letters received only a few 
sample letters follow. Additional letters have been retained in 
committee files.]
                                  House of Representatives,
                                                   August 10, 2007.
Energy and Natural Resources Committee,
304 Dirksen Senate Building, Washington, DC.
    Dear Honorable Senate Energy Committee Members: I write in strong, 
support of the Eastern New Mexico Rural Water Authority (ENMRWA) and 
the Ute Pipeline project. Water is a scarce resource in the Southwest 
and it is essential that our communities are provided with a reliable 
source of water. The Ute Pipeline project would help ensure that Quay, 
Curry and Roosevelt counties have long term access to water for 
municipal and industrial use.
    In 1959 the New Mexico State Legislature passed an act instructing 
the State Engineer to create a reservoir on the Canadian River (the Ute 
Reservoir) to help meet the water needs of Eastern New Mexico. The Ute 
Pipeline project would be the first project to use the reservoir for 
this original purpose. The project would provide 24,000 acre feet of 
water annually, from the Ute Reservoir, and would serve approximately 
73,000 people in a largely rural area, averaging four and a half people 
per square mile. The water provided by the Ute Pipeline would stimulate 
economic growth in the region which is threatened by a decline in the 
quantity and quality of groundwater reserves.
    I believe this project is important to help protect the long term 
prosperity of Eastern New Mexico communities.
            Very truy yours,
                                                 Tom Udall,
                                                Member of Congress.
                                 ______
                                 
                New Mexico Economic Development Department,
                                      Santa Fe, NM, August 7, 2007.

Hon. Jeff Bingaman,
703 Hart Senate Office Building, Washington, DC.

    Dear Senator Bingaman: Since becoming Secretary of the NM Economic 
Development Department, the dire situation of the Ute Pipeline Project 
and the work of the Eastern New Mexico Rural Water Authority have come 
to my attention.
    As it stands today, Ute Lake is primarily being used for 
recreational purposes as well as the Ute Lake Ranch sub division, both 
of which are great for the area, but neither of which are true 
sustainable economic growth for the State. The true intent of damming 
the Canadian River was to provide a long-term sustainable municipal and 
industrial water supply for eastern New Mexico communities in Roosevelt 
and Curry Counties. These communities today rely solely on non-
rechargeable and declining groundwater resources from the Ogallala 
Aquifer.
    In my short time as Secretary, I have observed the strong efforts 
on behalf of the Mayors of both Clovis and Portales and their 
organizations' hard work to bring economic development projects to 
their area, but it is my understanding that they are questioning if 
they should change their priorities and invest in more water rights to 
simply maintain the status quo.
    These communities are beginning to experience a surge in economic 
development but have recently lost significant new projects that would 
have made more than $150 million capitol investment in the community 
and hired around 5,000 employees had they felt more certain about the 
availability and sustainability of future water. The delivery of 16,450 
acre feet annually of potable surface water from this project is 
essential to sustain this area and insure this potential growth.
    As you know, this project has been supported by Governor Richardson 
since his early years in Congress and was identified as a key project 
in the Year of Water initiative for 2007. The NM Legislature is also a 
very strong supporter of this project.
    I realize that this project could cost $440 million, but I also 
recognize the intent of Ute Lake and the work that has already gone 
into seeing this project to fruition. The Eastern New Mexico Rural 
Water System provides the best and most cost effective solution to 
meeting these long term needs and to offset the potential economic 
constraints of serious groundwater depletion in the region.
    So in that vein, I urge you to authorize the ENMRWS and I look 
forward to working closely with you in this regard.
            Best Regards,
                                            Fred Mondragon,
                                                 Cabinet Secretary.
                                 ______
                                 
         New Mexico Energy, Minerals and Natural Resources 
                                                Department,
                                      Santa Fe, NM, August 1, 2007.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.

Hon. Pete V. Domenici,
Ranking Member, Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.

    Dear Senators Bingaman and Domenici: As Secretary for the New 
Mexico Energy, Minerals, and Natural Resources Department, I am 
committed to working collaboratively on energy and natural resource 
management issues to ensure a sustainable environmental and economic 
future for New Mexico.
    When Governor Richardson announced his statewide water agenda in 
late 2006, he made the Ute Pipeline Project a priority and called for 
an investment in its construction to ensure a longterm, renewable 
supply of clean water in eastern New Mexico.
    The project, shepherded by the Eastern New Mexico Rural Water 
System, exemplifies a cooperative effort by local, State, and Federal 
government to ensure the future sustainability and economic vitality of 
the region.
    The project seeks to offset the region's dependence on the High 
Plains Aquifer, which has long experienced water quantity and quality 
problems, and balance the groundwater depletion that is inevitable in 
an arid agricultural-producing area.
    The Ute Pipeline Project is of critical importance for eastern New 
Mexico. On behalf of the Energy, Minerals, and Natural Resources 
Department, I'm looking forward to working with my colleagues in state 
government, as well as local and federal officials, as we seek to make 
the Ute Pipeline a reality.
            Sincerely,
                                             Joanna Prukop,
                                                 Cabinet Secretary.
                                 ______
                                 
                                             Town of Elida,
                                         Elida, NM, August 10, 2007
Hon. Jeff Bingaman,
U.S. Senate, 304 Dirksen Senate Office Building, Washington, DC.

Hon. Pete V. Domenici,
U.S. Senate, 304 Dirksen Senate Office Building, Washington, DC.

    Dear Senators Bingaman and Domenici: Thank you for taking the time 
to review this letter of support for the Ute Pipeline Project. 
Agriculture is critical to our way of life in Elida, and one of our 
greatest needs as a community continues to be a sustainable water 
supply outside of the Ogallala/ High Plains aquifer. It's clear that 
the Ogallala aquifer's future is in jeopardy, and it's time to act now 
to protect the future of eastern New Mexico and our rural heritage.
    Accordingly, Elida is proud to be a member of the Eastern New 
Mexico Rural Water Authority, which supports the Ute Pipeline Project.
    Once constructed, this project will deliver approximately 16,000 
acre-feet of water annually from Ute Reservoir to eastern New Mexico, 
providing our community with the resources we need to grow and prosper 
in the future.
    Apart from the water that has been set aside for communities like 
Elida in Ute Reservoir, there is no other sustainable water supply 
available to eastern New Mexico. It is critical that we take the steps 
necessary to deliver this water to Curry and Roosevelt counties; 
otherwise, it is likely that these resources will be ceded to Texas 
under the Canadian River Compact, which would be devastating our 
livelihood and local economy.
    Clearly, this project will only become a reality if we receive the 
financial support of federal government. We are strongly appreciative 
of your hard work on behalf of this project in the past, and look 
forward to working with you in the future to ensure its completion.
            Sincerely,
                                               Kay Nuckols,
                                                             Mayor.
                                 ______
                                 
                      New Mexico State Legislature,
                                             State Capitol,
                                      Santa Fe, NM, August 7, 2007.
Hon. Pete V. Domenici,
U.S. Senator, 328 Hart Senate Office Building, Washington, DC.
    Dear Senator Domenici: The New Mexico interim Water and Natural 
Resources Committee recently heard a presentation by the Eastern New 
Mexico Rural Water Authority on the need for and status of development 
of the Eastern New Mexico Rural Water System (Ute Pipeline Project). 
The committee stands in support of the project and offers its 
commitment to working with the New Mexico congressional delegation and 
local water authority members to implement this critical project for 
New Mexico.
            Best Regards,
                                            Phil A. Griego,
                                                     State Senator.
                                 ______
                                 
                                   New Mexico State Senate,
                                      Sante Fe, NM, August 8, 2007.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S, Senate, 304 
        Dirksen Senate Office Building Washington, DC.

Hon. Pete V. Domenici,
Ranking Member, Energy and Natural Resources Committee, U.S. Senate, 
        304 Dirksen Senate Office Building, Washington, DC.

    Dear Senator Bingaman and Senator Domenici: As a resident of Clovis 
and as state senator for Colfax, Curry, Harding, Quay, San Miguel, Taos 
and Union counties, I have a deep understanding of the water resource 
challenges facing communities throughout rural New Mexico.
    Many of my constituents in Curry County, for example, are concerned 
about the future of our water supply, considering the fact that the 
Ogallala/High Plains Aquifer--a major source of our water--is 
diminishing. The county has reserved water for future use in Ute 
Reservoir, yet we still need a viable mechanism to deliver that water 
to eastern New Mexico. The Ute Pipeline Protject, supported by the 
Eastern New Mexico Rural Water Authority, is the most credible policy 
option in that regard.
    During the 2007 legislative session, I sponsored Senate Bill 485, 
which included a $40 million appropriation for the Ute Pipeline 
Project. Other legislation in the New Mexico House of Representatives 
sought significant funding for the Ute Pipeline Project as well. It is 
critical that legislators at all levels of government--whether locally, 
in Santa Fe or in Washington--continue to seek major appropriations for 
this project. As you know, it will take a significant financial 
investment, but our state's future is on the line.
    If we fail to act, the significant water needs of our state and its 
citizens--and the state obligations in water compacts with other 
states--may not be met. I hope that you will continue to support this 
worthwhile project, and I look forward to working with you in the 
future as we protect eastern New Mexico's water supply for generations 
to come.
            Sincerely,
                                    Clinton D. Harden, Jr.,
                                                           Senator.
                                 ______
                                 
                                   New Mexico State Senate,
                                      Santa Fe, NM, August 8, 2007.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee U.S. Senate, 304 
        Dirksen Senate Office Building, Washington, DC.

Hon. Pete V. Domenici,
Ranking Member, Energy and Natural Resources Committee, U.S. Senate, 
        304 Dirksen Senate Office Building Washington, DC.

    Senator Bingaman and Senator Domenici: On behalf of my constituents 
in Curry and Roosevelt counties--two counties affected by the Ute 
Piplinc Project--I am writing to thank you for your past support of 
this project and to urge your continued assistance in its 
implementation.
    As you know, an original intent of damming the Canadian River and 
creating a reservoir on Ute Lake was to provide a municipal and 
industrial water supply for communities like Clovis and Portales. These 
communities are today relying on the High Plains/Ogallala aquifer, 
which is waning in its water supply--and a mechanism for delivery from 
Ute Lake to eastern New Mexico is critically needed.
    It's important to understand that Clovis and Portalcs are making 
good faith attempts to improve their water supply, in addition to their 
efforts in support of this pipeline. For example, I recently requested 
a legislative appropriation for $1,100,000 to purchase water rights and 
land to convert agricultural wells to municipal and industrial use in 
Portales and Roosevelt County. However, we must continue to work toward 
a longer-term solution.
    I believe that all options should be on the table as we work to 
ensure the future of our water supply, including the construction of 
the Ute Pipeline. While the estimated capital cost of this project is 
significant, it nonetheless appears to be the most cost-effective way 
to protect eastern New Mexico's economy and livelihood for generations 
to come.
    We stand with you in your efforts to bring this project to 
fruition, and look forward to helping in any way we can. Thank you for 
your time and commitment to our state.
            Sincerely,
                                             Gay G. Kernan,
                                                Senate District 42.
                                 ______
                                 
                               State of New Mexico,
                                   House of Representative,
                                      Santa Fe, NM, August 8, 2007.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 304 
        Dirksen Senate Office Building Washington, DC.
Hon. Pete V. Domenici,
Ranking Member, Energy and Natural Resources Committee, U.S. Senate, 
        304 Dirksen Senate Office Building Washington, DC.

    Dear Senator Bingaman and Senator Domenici: As mayor of Santa Rosa 
and as State representative for Curry, Roosevelt, Guadalupe and DeBaca 
counties, I am very concerned about the future of eastern New Mexico's 
water.
    During the 2007 legislative session, I requested an appropriation 
of $5 million for the Eastern New Mexico Rural Water Authority to plan, 
design and construct a pipeline from Ute Reservoir to Curry and 
Roosevelt counties. This pipeline project is essential to the overall 
economic health of eastern New Mexico and our state as a whole.
    To offset their dependence on the failing High Plains aquifer, 
stakeholders in Curry and Roosevelt counties--and the communities of 
Clovis, Elida, Grady, Melrose, Portales, and Texico, in particular--
must find a viable means for receiving deliveries of water from other 
parts of the state. The Ute Pipeline Project is the most viable option 
in this regard.
    We all know that this project will take a significant financial 
investment to become a reality. As a State legislator, I will continue 
to make the funding of this project a priority in Santa Fe, and 
appreciate your efforts in securing the funds necessary from the 
Federal government to begin its construction. Please do not hesitate to 
contact me if I can be of further assistance. Thank you for your 
consideration.
            Sincerely,
                                            Jose A. Campos,
                                                             Mayor.
                                 ______
                                 
                               State of New Mexico,
                                  House of Representatives,
                                     Santa Fe, NM , August 7, 2007.
Hon. Pete V. Domenici,
Ranking Member, Energy and Natural Resources Committee, U.S. Senate, 
        304 Dirksen Senate Office Building, Washington, DC.
    Dear Ranking Member Domenici: In 2000, I was elected to serve as 
state representative for House District 67--one of the largest state 
legislative districts in the nation. District 67 encompasses Curry, 
Harding, Quay, Roosevelt, San Miguel and Union counties in northeastern 
and eastern New Mexico.
    Of critical importance to two of these counties--Curry and 
Roosevelt--is the Ute Pipeline Project, which seeks to use the supply 
of New Mexico water available in Ute Reservoir to provide stakeholders 
in the eastern part of our state with improved water quality and supply 
for years to come. The importance of this project to our state's 
agricultural future cannot be overemphasized.
    As you are well aware, the biggest roadblock to this project is the 
financial commitment necessary to ensure its completion. Throughout my 
tenure as a state legislator, I have sponsored and supported a number 
of appropriations to assist in funding this and other water projects. 
In particular, I have strongly advocated the development of a master 
plan for Ute Reservoir, because protecting its outstanding water 
quality is critical to the consumptive water delivery efforts of the 
eastern New Mexico rural water system. It is an important issue to my 
district.
    On behalf of my constituents. I am writing to urge your continued 
support for the Ute Pipeline Project. I know that you are constantly 
approached with requests for funding, but it is becoming abundantly 
clear that this project is the most cost-effective, long-term solution 
for the future of eastern New Mexico's water supply. I am appreciative 
of the fact that you are holding public hearings on this matter, and 
look forward to assisting you as we move forward with this process. 
Thank you for your service to our state and nation, and for your 
sustained efforts in this area.
            Sincerely,
                                            Brian K. Moore,
                                              State Representative.
                                 ______
                                 
                           Curry County New Mexico,
                             Board of County Commissioners,
                                        Clovis, NM, August 9, 2007.
Hon. Jeff Bingaman,
U.S. Senate, 304 Dirksen Senate Office Building, Washington, DC.

Hon. Pete V. Domenici,
U.S. Senate, 304 Dirksen Senate Office Building, Washington, DC.

    Dear Senator Bingaman and Senator Domenici: Curry County stands in 
strong support of your efforts on behalf of the Utye Pipeline Project. 
We've been proud to work with you on this project for many years, along 
with Governor Richardson and the New Mexico Legislature, and we're 
looking forward to the start of its construction.
    This project has the potential to improve the quantity and quality 
of the water supply for communities in Curry County, while also 
providing wholesale delivery of water to our county's unincorporated 
areas, where it can assist in areas like fire protection, livestock 
taps, and for redistribution as a domestic water supply.
    The Eastern New Mexico Rural Water Authority, which includes Curry 
County, has spent a number of years designing a cost-effective solution 
to meet our region's long-term water resource needs and to offset 
groundwater depletion, and we are confident that we have developed the 
best technical plans available for a project of this type. The timing 
is right to move forward with this project.
    Furthermore, we believe that it is critical to utilize the 
resources that have been set-aside in storage for Curry County at Ute 
Reservoir. Failure to use these precious resources in the near future 
could lead to them being lost to the State of Texas under the 
provisions of the Canadian River Compact--and that's a prospect that we 
simply cannot afford.
    We look forward to working with you to reach a successful 
conclusion with regard to this project. Thank you again for your 
commitment to the Ute Pipeline, and for your service to our state and 
nation.
            Sincerely,
                                        Frank H. Blackburn,
                                      County Commission Vice Chair.
                                 ______
                                 
                                  Roosevelt County,
                        Office of Finance & Administration,
                                      Portales, NM, August 8, 2007.
Hon. Jeff Bingaman,
U.S. Senate, 304 Dirksen Senate Office Building, Washington, DC.

Hon. Pete V. Domenici,
U.S. Senate, 304 Dirksen Senate Office Building, Washington, DC.

    Dear Senators Bingaman and Domenici: Thank you for taking the time 
to reach out to residents in eastern New Mexico at your upcoming 
hearing in Clovis on August 14th. Tackling New Mexico's water issues is 
a challenging proposition, and your leadership is greatly appreciated.
    As you know, Roosevelt County is home to the New Mexico Ag Expo. 
and agriculture is key to our local economy. The future of Roosevelt 
County is based on the availability of a sustainable water supply, and 
we're committed to working with our congressional delegation and the 
Eastern New Mexico Rural Water Authority to successfully complete the 
Ute Pipeline Project.
    As a member of the Eastern New Mexico Rural Water Authority, 
Roosevelt County strongly supports the Ute Pipeline Project, as it will 
also provide a sustainable water supply for municipal use and it seeks 
to reduce local groundwater competition between municipal and 
agricultural interests.
    Ultimately, the Ute Pipeline Project has the potential to provide 
the residents of Roosevelt County with a long-term, renewable water 
source, by linking eastern New Mexico directly to Ute Reservoir. While 
we have made a financial commitment at the county level, this project 
will only be possible with the support of the federal government, and 
we appreciate your continued efforts in this area.
            Sincerely,
                                           Charlene Hardin,
                                                    County Manager.
                                 ______
                                 
                                        Village of Melrose,
                                       Melrose, NM, August 8, 2007.
Hon. Jeff Bingaman,
U.S. Senate, 304 Dirksen Senate Office Building, Washington, DC.

Hon. Pete V. Domenici,
U.S. Senate, 304 Dirksen Senate Office Building, Washington, DC.

    Dear Senator Bingaman and Senator Domenici: Thank you for the 
opportunity to comment on the Ute Pipeline Project.
    Since the late 1880s, Curry County's primary economic activities 
have involved agriculture. As both of you are well aware, Eastern New 
Mexico is well known for its cattle grazing and variety of crops, 
including wheat, corn, milo, and alfalfa. Our agricultural economy, our 
region's survival is dependent upon a steady and sustainable supply of 
water.
    Today, water in Melrose is provided almost exclusively by the 
Ogallala aquifer, but it's been projected that the useful life of the 
Ogallala is on the order of only thirty (30) to forty (40) years or 
even less, under present levels of use.
    The Ute Pipeline Project has been designed to provide communities 
like Melrose with a reliable source of water in the future, but it's 
been in the planning stages for many years. As elected leaders, the 
burden is on us to work together, prioritize our funding efforts, and 
make the Ute Pipeline Project a reality for Eastern New Mexico's 
future.
    This project will be impossible to complete without your support 
and the support of your colleagues in Washington. We greatly appreciate 
your efforts on behalf of this endeavor in the past, and hope that 
you'll continue to make it a top legislative priority.
    Melrose's community members, its residents, farmers, ranchers, and 
business leaders understand that every drop of water is crucial to 
maintaining our way of life. Please feel free to reach out to us at any 
time if the Village of Melrose can be of assistance to your efforts.
            Sincerely,
                                             Lance A. Pyle,
                                                             Mayor.
                                 ______
                                 
                                            City of Texico,
                                        Texico, NM, August 8, 2007.
Senator Jeff Bingaman,
Senator Pete V. Domenici,
304 Dirksen Senate Office Building, Washington, DC.
    Dear Senators Bingaman and Domenici: As a rural community, the City 
of Texico and its surrounding area is heavily reliant on agriculture 
for survival.
    With the drought conditions that our region has experienced in 
recent years, it's essential that the issue of water availability 
remain top-of-mind in Washington. I understand that you will be holding 
a hearing on water issues in Clovis on August 14, and I appreciate your 
efforts to reach out to our community.
    It's clear that Texico cannot continue to rely on the Ogallala 
aquifer alone for its water supply. As you know, a number of proposed 
solutions are currently being debated, including the construction of a 
pipeline between Ute reservoir and eastern New Mexico.
    As Texico's mayor, I am open to discussing this project and other 
proposals with you to ensure that we find the best solution for our 
community's future. It's critical that officials at all levels of 
government work together to find common ground and reach a solution 
that ensures our region's continued economic livelihood and water 
supply.
            Sincerely,
                                          Jerry Cunningham,
                                                             Mayor.
                                 ______
                                 
                           Clovis Community Colleg,
                                      Educational Services,
                                        Clovis, NM, August 8, 2007.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 304 
        Dirksen Senate Office Building Washington, DC.

Hon. Pete V. Domenici,
Ranking Member, Energy and Natural Resources Committee U.S. Senate, 304 
        Dirksen Senate Office Building Washington, DC.

    Dear Mr. Chairman and Ranking Member Domenici: On behalf of Clovis 
Community College, we appreciate the efforts of the U.S. Senate Energy 
and Natural Resources Committee as it examines the issue of water 
sustairtability in eastern New Mexico.
    Clovis Community College has hosted a number of water and natural 
resource meetings over the years, and it's evident that our region has 
a number of critical decisions to make in the near future with regard 
to our water supply.
    We understand that the Ute Pipeline Project, coordinated by the 
Eastern New Mexico Rural Water Authority, has accumulated a great deal 
of support from your offices at the federal level, from Governor 
Richardson's administration, and from a bi-partisan coalition in the 
New Mexico State Legislature.
     It's also clear that the the Pipeline Project will play a 
significant role in maintaining and improving eastern New Mexico's 
economic health and well-being. Accordingly, since a key mission of 
Clovis Community College is to assume a leadership role in identifying 
and responding to needs in education and economic development, we are 
pleased to offer our support for the Ute Pipeline Project and its goal 
of providing a sustainable water supply for our community's future.
            Sincerely,
                                          Dr. Becky Rowley,
                                          Executive Vice President.
                                 ______
                                 
                     Eastern New Mexico University,
                                          Board of Regents,
                                      Portales, NM, August 8, 2007.
Hon. Jeff Bingaman,
U.S. Senate, 304 Dirksen Senate Office Building, Washington, DC.

Hon. Pete V. Domenici,
U.S. Senate, 304 Dirksen Senate Office Building, Washington, DC.

    Dear Senators Bingaman and Domenici: Since our opening in 1934, 
Eastern New Mexico University has developed a strong reputation as both 
a public university and community leader. Known across the state and 
region for our personal touch, ENMU offers a variety of services to 
help students succeed in their academic, personal and professional 
lives.
    We stand as a partner with eastern New Mexico's residents, and like 
many we're concerned about the sustainability of our region's water 
supply. In 2004, ENMU formed a Water Conservation Committee to 
recommend ways the university could conserve water on our properties. 
By taking a proactive approach, several strategies were enacted to 
reduce the use of water on campus, including changes in landscaping and 
grounds keeping.
    In addition, we remain supportive of the Eastern New Mexico Rural 
Water System and the Ute Pipeline Project for a number of reasons, as 
it will:

  <bullet> Provide a sustainable water supply for Portales and 
        Roosevelt County;
  <bullet> Improve the overall quality of our region's water supply;
  <bullet> Supply a source of continued economic sustainability and 
        growth; and,
  <bullet> Offset our region's dependence on the failing Ogallala 
        aquifer.

    We appreciate this opportunity to comment on water issues in 
eastern New Mexico, and appreciate your support for both our 
institution and the future sustainability of our region. Please feel 
free to contact us if ENMU can be of further assistance to your 
efforts.
            Sincerely,
                                          Steven G. Gamble,
                                                         President.
                                 ______
                                 
                 Clovis Industrial Development Corporation,
                                        Clovis, NM, August 9, 2007.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 304 
        Dirksen Senate Office Building Washington, DC.

Hon. Pete V. Domenici,
Ranking Member, Energy and Natural Resources Committee, U.S. Senate, 
        304 Dirksen Senate Office Building Washington, DC.

    Senator Bingaman and Senator Domenici: I am writing on behalf of 
the Clovis Industrial Development Corporation, whose purpose is to 
develop business opportunities and recruit new business and industry to 
Clovis and Curry County, in an effort to strengthen and diversify our 
economic base in the region.
    As you know, we have been able to attract a great deal of new 
business to our area, though some companies have recently expressed 
concerns about the sustainability and availability of our water supply. 
It's becoming evident that bold steps will be required on the water 
issue to ensure our region's standing as a potential site far business 
relocation and growth.
    The Eastern New Mexico Rural Water System is the type of bold step 
that is needed, in our opinion. While the cost of its construction will 
be considerable, its projected delivery of potable surface water to 
Curry and Roosevelt counties will undoubtedly provide the resources 
necessary for our region to remain economically viable and prosperous.
    In addition, the construction and operation of this project will 
provide a significant economic impact in its own right. Potential 
revenues of up to $8.5 million will accrue from gross receipts taxes on 
construction, and up to $450,000 annually from operation and 
maintenance alone. Additionally, income tax payments are estimated to 
increase by up to $360,000 initially and $53,000 annually.
    Unfortunately, if we fail to act, the result could mean significant 
losses to our existing economic base and lost opportunities for future 
economic development. We look forward to working closely with you to 
ensure that the Eastern New Mexico Rural Water System--and our region's 
economic future--stays on the right track. Thank you for your continued 
assistance.
            Sincerely,
                                              Chase Gentry,
                                                Executive Director.
                                 ______
                                 
                                      Curry County,
                                   Farm & Livestock Bureau,
                                                    August 7, 2007.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 304 
        Dirksen Senate Office Building Washington, DC.

Hon. Pete V. Domenici,
Ranking Member, Energy and Natural Resources Committee, U.S. Senate, 
        304 Dirksen Senate Office Building Washington, DC.

    Dear Senators Bingaman and Domenici: It has been brought to our 
attention that Congressional funding for the Ute pipeline is being 
sought. The Curry County Farm & Livestock Bureau is asking for your 
assistance and support to ensure that funding is appropriated for this 
pipeline. As you are aware, it is critical for Curry County in that it 
ensures a long-term supply of water for the citizens, as well as 
economic development and stability in agriculture production. In 
addition there is a concern that if this water is not put to beneficial 
use in the region, it may be allocated outside the state.
    We appreciate your support in appropriating funds for this 
strategic water infrastructure in eastern New Mexico.
            Sincerely,
                                              Dee J. Brown,
                                                         President.
                                 ______
                                 
                             Dairy Producers of New Mexico,
                                                    August 6, 2007.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, 703 Hart Senate 
        Office Building, Washington, DC.
    Dear Senator Bingaman: As you know, nearly a quarter of New 
Mexico's dairies currently operate in Roosevelt County. On behalf of 
New Mexico's dairy producers, Dairy Producers of New Mexico would like 
to urge you to support the Ute Pipeline Project. This project will give 
Roosevelt County and neighboring areas the sustainable water supply 
they need for future growth.
    Many New Mexicans rely on the dairy industry for their livelihood, 
and New Mexico's dairies are critical to maintaining a quality supply 
of affordable dairy products for our state's residents and businesses. 
While dairies use less than 5% of the total ground water diversions in 
their respective counties, water is critical to the industry. Dairy 
Producers of New Mexico believes that the Ute Pipeline Project will 
provide a cost-effective, long-term solution for providing water to 
many of New Mexico's dairy operations (non irrigated agriculture) and 
supporting commercial businesses.
    The Eastern New Mexico Rural Water System, through its members, has 
committed hundreds of thousands of dollars toward this project. These 
funds have laid the groundwork for this project, from technical 
planning to engineering to public outreach. However, it will take the 
cooperation of local, state, and federal governments to provide the 
total funding necessary for the Ute Pipeline Project.
    We know that you recognize, as we do, that a sustainable water 
supply for eastern New Mexico is critical to the future of the state's 
dairy industry. As always, we appreciate your continued support of the 
dairy industry in New Mexico. Please feel free to contact me if Dairy 
Producers of New Mexico can be of assistance to your efforts in moving 
this project forward.
            Sincerely,
                                        Sharon L. Lombardi,
                                                Executive Director.


</pre></body></html>
